<html>
<title> - TIBET ``FROM ALL ANGLES'': PROTECTING HUMAN RIGHTS, DEFENDING STRATEGIC ACCESS, AND CHALLENGING CHINA'S EXPORT OF CENSORSHIP GLOBALLY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


TIBET ``FROM ALL ANGLES'': PROTECTING HUMAN RIGHTS, DEFENDING STRATEGIC 
     ACCESS, AND CHALLENGING CHINA'S EXPORT OF CENSORSHIP GLOBALLY
=======================================================================

                                 HEARING

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 14, 2018

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


              Available at www.cecc.gov or www.govinfo.gov
              
              
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-232 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="482f3827082b3d3b3c202d2438662b272566">[email&#160;protected]</a>               
              
              
              
              


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



  Senate                                   House

MARCO RUBIO, Florida, Chairman       CHRIS SMITH, New Jersey, 
TOM COTTON, Arkansas                 Cochairman
STEVE DAINES, Montana                ROBERT PITTENGER, North Carolina
JAMES LANKFORD, Oklahoma             RANDY HULTGREN, Illinois
TODD YOUNG, Indiana                  MARCY KAPTUR, Ohio
DIANNE FEINSTEIN, California         TIM WALZ, Minnesota
JEFF MERKLEY, Oregon                 TED LIEU, California
GARY PETERS, Michigan
ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                           Not yet appointed

                   Elyse B. Anderson, Staff Director

                 Paul B. Protic, Deputy Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Marco Rubio, a U.S. Senator from 
  Florida, Chairman, Congressional-Executive Commission on China.     1
Smith, Hon. Christopher, a U.S. Representative from New Jersey, 
  Cochairman, Congressional-Executive Commission on China........     3
Wangchen, Dhondup, Tibetan Filmmaker and Recently Escaped 
  Political Prisoner.............................................     5
Dorjee, Tenzin, Ph.D., Commissioner, U.S. Commission on 
  International Religious Freedom (USCIRF) and Associate 
  Professor, California State University, Fullerton..............    10
Green, Michael J., Ph.D., Senior Vice President for Asia and 
  Japan Chair, Center for Strategic and International Studies 
  (CSIS).........................................................    13

                                APPENDIX
                          Prepared Statements

Wangchen, Dhondup................................................    34
Dorjee, Tenzin...................................................    37
Green, Michael J.................................................    63

Rubio, Hon. Marco................................................    64

                       Submissions for the Record

Statement of Hon. James P. McGovern, a U.S. Representative from 
  Massachusetts..................................................    65

Witness Biographies..............................................    68

                                 (iii)

 
TIBET ``FROM ALL ANGLES'': PROTECTING HUMAN RIGHTS, DEFENDING STRATEGIC 
     ACCESS, AND CHALLENGING CHINA'S EXPORT OF CENSORSHIP GLOBALLY

                              ----------                              


                      WEDNESDAY, FEBRUARY 14, 2018

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:42 
a.m., in Room 301, Russell Senate Office Building, Senator 
Marco Rubio, Chairman, presiding.
    Also present: Representative Christopher Smith, Senator 
Steve Daines, and Representative Ted Lieu.

  OPENING STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM 
 FLORIDA, CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Rubio. This hearing of the Congressional-Executive 
Commission on China will come to order. The title is ``Tibet 
`From All Angles': Protecting Human Rights, Defending Strategic 
Access, and Challenging China's Export of Censorship 
Globally.''
    We will have one panel today. It features Dhondup Wangchen, 
a Tibetan filmmaker and recently escaped political prisoner; 
Dr. Tenzin Dorjee, who is a Commissioner, U.S. Commission on 
International Religious Freedom, also an associate professor at 
California State University at Fullerton; and Dr. Michael 
Green, senior vice president for Asia and Japan Chair, Center 
for Strategic and International Studies. We thank you all for 
being here.
    Without question, Tibet remains one of the most sensitive 
issues in U.S.-China relations. Conflict between Tibetan 
aspirations and Chinese policy is found within cultural, 
religious, and educational spheres.
    As the Chinese government seeks to diminish or altogether 
eliminate aspects of Tibetan culture that it regards as 
threatening, the peaceful exercise of internationally 
recognized human rights is systematically suppressed. Inside 
the Tibet Autonomous Region and Tibetan Autonomous areas, 
Chinese officials have increased restrictions on the religious 
and cultural life of Tibetans over the past decade by 
implementing pervasive controls and restrictions on religious 
practice. This trend was highlighted in the Commission's most 
recent annual report.
    Beginning in 2016, Chinese authorities targeted renowned 
centers of Buddhist learning for demolition and reportedly 
expelled more than 4,800 Tibetan Buddhist monks and nuns and 
subjected them to periods of ``patriotic education'' lasting 
from several weeks to six months. There are more than 500 cases 
of Tibetan political or religious prisoners currently in 
detention who are in this Commission's political prisoner 
database, a staggering figure that is far from exhaustive.
    Access to Tibet for foreign journalists, nongovernmental 
organizations, and diplomats remains severely restricted. At 
the same time, the Chinese Communist Party's government exports 
its authoritarianism abroad, pressuring foreign academic 
institutions who invite the Dalai Lama to speak on campus, as 
well as businesses who mention his name or the Tibet Autonomous 
Region as a distinct region.
    It is this dimension of global Chinese censorship which has 
thus thrust Tibet into the news in recent days. Every week, it 
seems another major international company is publicly, and in 
some cases shamelessly, apologizing to the PRC for some sort of 
misstep related to Tibet, the Dalai Lama, or otherwise 
sensitive issues.
    Driven by their bottom line in China's vast market, many 
companies are increasingly prepared to toe Beijing's line. 
There is a certain grim irony to the Chinese government 
demanding that businesses apologize for social media posts on 
social media platforms that are actually blocked inside of 
China.
    It is clear that the cost of doing business for foreign 
companies in China keeps getting steeper, and at the same time, 
there is little price to be paid in the west when companies 
engage in self-censorship to further their bottom line despite 
the fact that it is antithetical to the values that underpin 
our own society--the values, by the way, that allow these 
companies to even exist in the first place.
    We will explore all of these topics during today's hearing, 
in addition to the future of the Dalai Lama's succession, 
China's efforts to control water resources and expand its 
military presence on the Tibetan plateau, and the impact on the 
broader U.S. strategic interests in human rights.
    Before turning to our witnesses, I would be remiss if I did 
not underscore how pleased we are to welcome the Tibetan 
filmmaker Dhondup Wangchen to today's hearing. It is not often 
that we are able to welcome to the witness stand political 
prisoners whose cases the Commission has highlighted in our 
prisoner database, in letters to the administration, and on our 
social media.
    Set against a backdrop of a different Olympic Games in 
Asia, it is fitting to recall that Mr. Wangchen's ``crime'' was 
the making of a short documentary film, ``Leaving Fear 
Behind,'' in 2008, which was based on 108 interviews he 
conducted with Tibetans who expressed views on a range of 
issues from the Dalai Lama to the 2008 Beijing Olympics.
    Golog Jigme, Mr. Wangchen's assistant in producing the 
film, was among the witnesses at an April 2016 Commission 
hearing titled ``China's Pervasive Use of Torture.'' He too was 
subsequently detained in 2008 for his work on the documentary, 
and during his detention, he was severely tortured.
    Mr. Wangchen, we welcome you to America. We welcome you to 
safety and to freedom, and we stand with you in working toward 
the day when the Tibetan people are afforded these same 
protections.
    I now recognize Congressman Smith for his opening comments.

STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. REPRESENTATIVE FROM 
 NEW JERSEY, COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Cochairman Smith. Thank you very much, Chairman Rubio. And, 
again, thank you for your extraordinary leadership on this 
Commission.
    This hearing, again, reminds us of the dire and worsening 
situation of the Tibetan people inside China. Along with you 
and my colleagues, I would very, very robustly like to welcome 
Dhondup Wangchen to the United States.
    We're glad you're here and finally reunited with your 
family. What an unbelievable irony that at a time when China is 
buying Hollywood, and buying access, and buying companies to 
influence product, that a man who speaks so eloquently to 
another product--and that's repression--would find himself so 
horribly mistreated.
    So we are so glad you are here, and as the Chairman said, 
you were one of the key focuses of this Commission for a very 
long time. So thank you for being here.
    You are one in a long line of heroic dissidents and former 
prisoners of conscience who have testified before this 
Commission. The Chinese government may not like our efforts, 
and that is an understatement. They don't like a light being 
shone on their human rights abuses, but nothing good happens in 
the dark. We need to accelerate what we are doing to bring 
focus and scrutiny to their abuses.
    We are looking today at Tibet from all angles, as a human 
rights issue, as a critical matter of diplomacy, and as a 
geostrategic concern. Too often human rights and human rights 
diplomacy are discounted or ignored as a secondary concern in 
bilateral relations. That has been a bipartisan failure by a 
number of White Houses and State Departments.
    They are too often viewed as problems, and not of real 
interest to the United States. I believe that sells out the 
dissidents, and sells out the best and the bravest women and 
men in China and anywhere else where we practice that kind of 
subordination of human rights to other concerns.
    It is abundantly clear that we are in direct link between 
China's domestic human rights problems and the security and the 
prosperity of the United States. There is a link.
    The health of the U.S. economy and the environment, the 
safety of our food and drug supplies, the security of our 
investments and personal information in cyberspace, the 
academic freedom of our universities and the stability of the 
Pacific region will all depend on China complying with 
international law, allowing the free flow of news and 
information, complying with its WTO obligations, and protecting 
the basic rights of Chinese citizens, including the fundamental 
freedoms of religious expression, assembly, and association.
    Losing sight of these facts leads to bad policy, bad 
diplomacy, and the needless juxtaposition of values and 
interests. It also sends the wrong message to those in China 
standing courageously for greater freedom, human rights, and 
the rule of law.
    There is the issue of corporate capitulation referenced by 
our distinguished Chairman. As Mercedes Benz pulled an 
advertisement on Instagram with the Dalai Lama and a quote, 
``Look at a situation from all angles and you will become more 
open.'' Like Delta and Marriott before it, Mercedes shamelessly 
apologized even though Instagram is blocked in China.
    I remind my colleagues that back in 2006, I began a series 
of hearings where we had Google, Microsoft, Cisco and Yahoo. I 
had them take the stand and swear in. It was an eight-hour 
hearing. And they were not only censoring all things on their 
platforms, Google especially, but they were also aiding and 
abetting the propaganda of the Beijing dictatorship, all for 
profit--all for profit.
    Now we see others following that terrible and dangerous 
precedent of years ago. It has been unabated, and now it's 
continuing even in a more shameless way toward Tibet.
    The administration's national security strategy rightly 
identifies China's foreign influence operations as a strategic 
threat. It is imperative to counter China's global influence 
operations and efforts to export its authoritarian model, and 
globally.
    I chair the Africa, Global Health, Global Human Rights 
Committee. We are planning very shortly, within about a month, 
a hearing on the influence in Africa. We've had them before, 
but it is getting worse. The bad governance model of Beijing is 
being accepted by some, particularly dictatorships like 
Zimbabwe. So we need to bring a light there and compete with 
that influence that is being subjected, or imposed, I should 
say, on Africa.
    As China increasingly flexes its economic muscle, the 
result will be more apologies, sadly, accommodation, and self-
censorship.
    Corporate America needs to get more of a backbone. It needs 
to stand for fundamental freedoms. Yes, make a profit, but do 
so in a way that does not violate human rights. And it is not 
just companies that have capitulated, but universities and 
Hollywood, and nongovernmental organizations, and even whole 
countries.
    As China's Belt and Road Initiative expands, so will 
demands that countries be silent about human rights abuses, 
silent about religious persecution, and silent about the 
Chinese government's repeated failure to abide by its 
international obligations.
    Where is the UN? I have raised it over and over again. The 
Human Rights Council, even at the Periodic Review it's a very 
short look and scrutinizing--Israel gets unbelievable focus at 
the United Nations on all things related to human rights; 
China, not even a slap on the wrist.
    We should not be silent about the abuses faced by the 
Tibetan people and religious leaders. The China Commission's 
political prisoner database contains records on 600 known 
Tibetan political and religious prisoners. Forty-three percent 
of those detained are monks, nuns, and religious teachers. 
Almost all were imprisoned since 2008.
    The Tibetan people have a right to practice their religion, 
preserve their wonderful culture, and speak their language. 
They have a right to do so without restriction or interference. 
The Chinese government, of course, does not agree. To them, 
their faith and culture are problems to be solved, not a 
heritage to be preserved and protected. To them, the Dalai Lama 
is an agitator and a revolutionary, not a world-renowned and 
respected voice for peace and harmony that we know him to be.
    The Chinese government wants the Tibetan Buddhism that is 
attractive to tourists for photo ops, and not the one that is 
strongly embraced and revered by the Tibetan people. Allowing 
greater religious freedom is an essential part of dealing with 
the grievances of the Tibetan people, but China's answer is 
always the same: control, manage and repress, and incarcerate, 
and torture. It is counterproductive and it violates China's 
international obligations.
    Finally, in our dealings with the Chinese government and 
officials, Members of Congress and the administration should 
affirm the peaceful desires of the Tibetan people for greater 
autonomy and freedom within China. We should stress that 
China's policies create needless grievances and their 
repression of Tibet only hurts China's international prestige. 
It brings dishonor--dishonor to Beijing.
    We should demand open access to Tibet by journalists and 
diplomats, and we should raise the cases of prisoners of 
conscience with Chinese officials. U.S. leadership on these 
issues is critical because our allies in Europe and Asia can 
often be bullied by Chinese threats of economic boycotts. We 
must demonstrate that Tibet matters, human rights matter, that 
religious freedom matters to U.S.-China relations.
    And, again, I want to thank Chairman Rubio who has been a 
stalwart in speaking out on behalf of human rights all over the 
world, including and especially in Tibet.
    Chairman Rubio. Thank you. Thank you for those kind 
comments. And thank you as well for your activism, and for your 
work on this Commission, and for being accommodating at the 
late start. We have all of these other issues going on.
    So let's begin with our witness testimony.
    Mr. Wangchen, we thank you for being here with us today, 
and we recognize you for any statement you have for the 
committee.

 STATEMENT OF DHONDUP WANGCHEN, TIBETAN FILMMAKER AND RECENTLY 
                   ESCAPED POLITICAL PRISONER

    Mr. Wangchen. [Formal Tibetan Greeting.] I am very pleased 
to be here--to be in the United States Congress--to be 
addressing you, the Members of Congress. I would like to take 
this opportunity to thank you all for your support for the 
Tibetan people.
    I would like to begin by talking about the reason why I 
made the movie ``Leaving Fear Behind.'' The Chinese authorities 
were launching a campaign of disinformation about what the 
Tibetan situation is, what Tibet is. They claim that there is 
religious freedom in Tibet, there is freedom of expression, 
etc. So I wanted to address all of these issues.
     The reality is that today life in Tibet is being 
destroyed, the nomadic tradition of the majority of Tibetans is 
being destroyed. Tibetans are being forced to denounce His 
Holiness, the Dalai Lama, and there is virtually no space for 
the Tibetan grievances to be addressed. Therefore, without 
being afraid of all of the risks that entails, we wanted to 
make this documentary to spread the true information about 
Tibet to the world.
    As a result of making that documentary, the Chinese 
authorities detained and imprisoned me. During the 
imprisonment, I suffered physical torture as well as mental 
torture. Physically for days and nights, they would abuse me. 
Mentally, they would not allow me to sleep. They would not 
allow me to do anything that I wanted. They would even insert 
fear into me by putting a mask or a hood over me whenever they 
were taking me, handcuffing me, so that I didn't really know 
where they were taking me.
    So then I was without any due process. I was sentenced to 
six years of imprisonment. They did not allow me to have my own 
lawyers. They did not follow the judicial process, in violation 
of their own constitution. And then they gave me the six years 
of imprisonment.
    In prison, there was discrimination. Although as a 
political prisoner, they should have given me certain rights, 
they did not do that. They also did not allow me to have any 
connections with my family, etc. So, virtually, they did not 
give me any rights that they were giving even to other 
prisoners.
    So, therefore, I confronted the prison authorities about 
the rights that a prisoner should be getting, that I should be 
getting. And that they did not allow me. As a result, I wrote a 
long petition to the international community about the 
situation inside the prison, about my situation, about what was 
happening there. And I sent this petition out in the hope that 
it would be spread in the international community.
    However, the Chinese authorities confiscated that petition. 
As a result, I was sentenced to 84 days of solitary 
confinement.
    Even when I was released, my release wasn't like any other 
prisoners. Normally, prisoners--when they are released at--when 
prisoners are released, they are released at 7:00 a.m., and 
then they are handed over to the family members. However, in my 
case, I was taken at 4:00 a.m. and was able to be at my 
family's home only at 4:00 p.m. after taking me different ways 
to the place.
    Even after release, I was virtually in prison. My political 
rights were taken away for three years. Wherever I would like 
to go, it would be monitored and I had to seek permission from 
the authorities.
    They would interrogate me, and one of the issues they would 
always raise with me is, you have made this movie, ``Leaving 
Fear Behind,'' which has been internationally known. So if you 
confess your wrongdoing about that documentary, then we will 
help you with your family reunification.
    And it wasn't just me alone that the Chinese authorities 
were tormenting. The people I--me, my friends, the place where 
I stayed, or wherever I went, those people would also be 
confronted, or would also be interrogated by the Chinese 
authorities.
    I also know that the United States Government had appealed 
to the Chinese authorities about my case, but nothing came out 
of that thing. So eventually, ultimately, through the help of 
many people, despite the risk involved, despite having to pay a 
lot of expenses, I was able to escape.
    I am in freedom now. However, there are many people like me 
who are political prisoners, who are under detention in China.
    So I would like my testimony to be read--the full testimony 
to be on the record, but will read excerpts from it.
    Cochairman Smith. Without objection, so ordered.
    And please proceed. Take as long as you would like.
    [The prepared statement of Dhondup Wangchen appears in the 
appendix.]
    Mr. Wangchen. I was born on October 17, 1974, to a family 
of Tibetan farmers in Bayen which is in the province we call 
Amdo. In today's administrative divisions, Bayen is in Tsoshar 
prefecture, Qinghai province, People's Republic of China.
    I arrived in the USA on December 25, 2017, and it was the 
first time in many years that I felt safety and freedom. The 
reunion with my family in San Francisco was a wonderful moment 
that I had looked forward to in the past years with a mixture 
of anxious joy and the hesitation a man feels who was hindered 
from being the husband he ought to be for his loving wife, a 
man who was not given the chance to stand by with fatherly 
advice to his children in a world full of challenges, and a man 
denied being the son needed for his aging parents, tormented by 
the thought that they would not see each other again in their 
lifetime.
    Growing up in the remote village of Khotse in Amdo, 2000 km 
east of Tibet's capital, Lhasa, I started the discovery of my 
people's history with little knowledge, but with an insatiable 
and juvenile curiosity about what life had to offer me.
    Our family lived a simple life, right at the edge of the 
Tibetan plateau, bordering the Chinese mainland. I was aware of 
repression in the past. I had lost members on both my mother's 
and my father's sides of the family as a result of China's 
atrocities toward Tibetans.
    However, it wasn't until I made my journey to Lhasa in the 
early 1990s as a young adult that I first saw, firsthand, 
resistance to China's occupation and political symbols such as 
the Tibetan national flag. In 1992, I witnessed monks from 
Ganden Monastery carry out a street protest in Lhasa. Some nuns 
also protested. I saw armed police and military forces quell 
the protest in a heavy-handed manner and detain the monks and 
nuns.
    It was also in 1992 that I decided to go to India to see 
His Holiness the Dalai Lama and receive some education. At that 
time, there were many Tibetans escaping to India. However, I 
only stayed a year and returned to Tibet in 1993 where I was 
involved in activism such as helping former political 
prisoners.
    I would like to acknowledge my cousin Jamyang Tsultrim who 
mentored me in my formative years and who is here at today's 
hearing.
    In 1996, my good friend, Ganden monk Jigme Gyatso--a true 
Tibetan hero--was arrested on charges related to the 1992 
protest. Jamyang Tsultrim was also arrested and they both 
served prison sentences. I was working in Jamyang's restaurant 
in Lhasa, which the authorities threatened to close down as it 
was the center of many of our activities.
    I spent many years involved in various forms of activism 
and was detained several times. The longest that I was held in 
detention was for about 30 days in Lhasa in 2001, but I was 
never formally charged and was always released.
    As the 2008 Olympic Games were fast approaching, and it was 
always being reported in state media, I told Jamyang Tsultrim--
who had by then gone to Switzerland--that I wanted to do 
something that would have a big and long-term impact and that 
would reflect the true feelings and wishes of the Tibetan 
people. This was when we first started thinking about making a 
documentary film from inside Tibet that would later be known as 
``Leaving Fear Behind.''
    I set to work finding collaborators and traveling all over 
Tibet to interview ordinary Tibetans. We would record 
interviews in isolated places so as not to arouse suspicion, 
and we were always careful to ask whether the interviewees 
wanted to have their face shown on camera or not. We carried 
with us the DVDs of the ceremony which showed U.S. President 
George Bush awarding His Holiness the Dalai Lama the 
Congressional Gold Medal in October 2007. We showed this to 
many people who became very emotional upon seeing it.
    Our final footage was taken in Xi'an on March 10, 2008, and 
handed over to a UK-born Tibetan who helped to ensure that it 
reached Zurich in Switzerland. We spent that day together 
unaware that protests had broken out in Lhasa the same day and 
would continue over the next days and months all over Tibet.
    Even though I was aware that I was being followed and was 
under surveillance, it wasn't until March 26, 2008 that I was 
arrested and interrogated by secret police. I was not kept in a 
police station or prison but in a hotel, and my family was not 
informed of my whereabouts.
    The torture started as soon as I was detained. I was forced 
to sit in the ``tiger chair'' for seven days and eight nights. 
I was given no food and was not allowed to fall asleep.
    It wasn't long before I was back in detention after I was 
briefly released.
    ``Leaving Fear Behind'' was by then released and 
distributed online just before the Olympics started in China.
    Even though I did not know for sure, I was hopeful that 
everything had gone according to plan. I suspected that the 
authorities were building their case against me. I was often 
interrogated and told I had to denounce His Holiness the Dalai 
Lama, and that if I admitted my wrongdoings, I would be 
released. I always refused to do these things.
    I was shown ``Leaving Fear Behind'' while in detention in 
December 2008, a few months before I was released. I will 
remember this moment forever. The interrogator wanted to know 
how I knew the people I had interviewed. And then they showed 
me the edited film and wanted me to confess.
    For the first time I watched the film in a Chinese prison. 
While the interrogator continued to force me to confess my 
wrongdoings, I just enjoyed in my inside the train scene, the 
music and auspicious lyrics and felt immensely proud. I thought 
that even if I received a 10-year sentence, it would have been 
worth making the film. I felt happy for the interviewees who 
had taken great risks to appear in the film and we had promised 
them that the film would be seen by the outside world, and His 
Holiness the Dalai Lama would know about the film as well. So I 
was happy that I had been able to keep that promise to the 
interviewees.
    I remained in informal detention until I was tried and 
sentenced on December 28, 2009, to six years in prison for 
``subversion of state power.'' The case against me mentioned 
the projects I had been involved with, printing and 
distributing books, as well as making ``Leaving Fear Behind.''
    During my time in various forms of labor detention, I had 
to do manual labor which differed depending on where I was. I 
had been made to do many different tasks such as peeling garlic 
or stitching military uniforms and was given only two meals a 
day, which was barely adequate. The day would start at around 
6:30 a.m., and we had to work until 11:00 p.m. We never went 
outside and I was in constant pain with headaches and hurting 
arms. I always witnessed a difference in how prisoners and 
political prisoners were treated. When it came to Tibetan 
prisoners, we were never allowed to speak Tibetan to each 
other.
    While in prison, I wrote many letters to my sister and my 
family members, and the prison authorities took them, saying 
they would be sent on. After release, I discovered that none of 
the letters had arrived. In March 2012, it was discovered that 
I tried to smuggle a letter to the outside world. This letter 
was a long appeal to the then Chinese President, Hu Jintao, and 
Premier Wen Jiabao outlining the corrupt prison system and the 
discrimination that Tibetan prisoners suffer. I was punished by 
being placed in solitary confinement for 84 days.
    Following my release, I was always monitored closely and 
the police would contact me constantly. I did not feel free at 
all. I wanted to study and improve my Tibetan, and I wanted to 
work, but in those three and a half years I couldn't do 
anything. Feeling frustrated and increasingly isolated, I 
decided that it would be better to escape from the PRC, rather 
than stay under those circumstances without any freedom.
    While in Tibet, I had information that the outside world, 
including the United States Government, was concerned about my 
situation. The Swiss, Dutch and the German governments were 
also concerned about me. The attention from outside from civil 
societies around the world, as well as from governments, 
definitely helped me. This was reflected, for example, in the 
way my prison inmates and the prison administration treated me. 
Though I suffered from being restricted in my communications 
with my relatives, to the extent that I was isolated from the 
outside world, I was less subject to arbitrary punishments and 
beatings.
    I feel your support for cases like me and Tibet, in 
general, could be of greater effect if you regularly recall the 
ground reality in Tibet. There are thousands of Tibetans like 
me, actively involved in the struggle. Tibetans in Tibet are 
not victims but agents of change trying to explore and use 
every opportunity to fight for a better future. We need support 
and partnership from the outside world.
    Every attempt for more freedom or democracy is oppressed by 
China. It is against the nature of this regime to tolerate 
freedom and democracy, be it in China, in Tibet and ultimately 
in the rest of the world.
    I am not a politician, and my knowledge about the specifics 
of your legislative process is limited. My friends from the 
International Campaign for Tibet in Washington, D.C. explained 
the goal and important details of their recommendations to the 
Congress to me. I am happy to support these recommendations.
    Actions taken by the U.S. Congress on Tibet send a strong 
message to the people in Tibet. However, the systematic 
suppression of free press and reporting from Tibet can only be 
fought with a systematic counterapproach. Therefore, the 
Congress should pass the Reciprocal Access to Tibet Act of 
2017.
    I know that there is a U.S. Special Coordinator for Tibetan 
Issues in the State Department who I would have liked to meet, 
but I am told no one has been appointed to this position as 
yet. And so I would like this position to be filled as soon as 
possible. I would also like you all to pass the resolution 
expressing the sense of the Congress that the treatment of the 
Tibetan people should be an important factor in the conduct of 
United States relations with China.
    I would like to ask the U.S. administration to raise Tibet 
in appropriate international fora, including the U.N. bodies.
    Finally, I would like to urge China to release all Tibetan 
political prisoners, including the 11th Panchen Lama, Gedhun 
Choekyi Nyima.
    My wish is that whatever measures you take, do it with the 
strongest possible conviction and in the most forceful and wise 
manner. As a Tibetan who has tried his best to give a voice to 
his fellow countrymen, I can assure you that Tibetans in Tibet 
have not given up.
    Thank you.
    [Applause.]
    Chairman Rubio. Thank you.
    Dr. Dorjee.

     STATEMENT OF TENZIN DORJEE, Ph.D., COMMISSIONER, U.S. 
  COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM (USCIRF) AND 
  ASSOCIATE PROFESSOR, CALIFORNIA STATE UNIVERSITY, FULLERTON

    Mr. Dorjee. My thanks to the Congressional-Executive 
Commission on China, and you, Senator Rubio and Representative 
Smith, cochairs of the Commission; and Representative Lieu and 
Senator Daines for today's hearing.
    I ask that my written testimony be submitted for the 
record.
    I am Tenzin Dorjee, a USCIRF Commissioner. I testify as a 
proud Tibetan American and Tibetan refugee.
    I am joyful to be here with Dhondup Wangchen but saddened 
that he and his family had to flee Tibet to live in freedom. 
This is so because the Chinese government seeks total 
domination by forcing Tibetans to assimilate into the dominant 
Han culture, seeking to control Buddhism and restricting the 
teaching of the Tibetan language. The government seeks to 
advance its sinicization of religion, infusing all aspects of 
faith into a socialist mold with Chinese characteristics.
    Tibet now is a police state because:
    (1) The Chinese government implements oppressive 
restrictions in Tibet and Tibetan areas, including reeducation 
campaigns and extensive surveillance and intrusive presence of 
military and security forces. The government quickly suppresses 
any perceived religious dissent and imprisons and tortures 
those viewed as threats. While these policies are set in 
Beijing, Chen Quanguo perfected the surveillance state when he 
was Tibet's party Secretary. He now is Xinjiang's leader and 
doing the same thing there.
    (2) The Chinese government believes the Dalai Lama 
threatens its control. Officials recognize his central 
importance to Tibetans. While the Dalai Lama seeks to achieve 
stability and coexistence between Tibetans and Chinese through 
the Middle Way, the government accuses him of blasphemy and 
splittism, targeting anyone suspected of separatist activities 
and participating in the Dalai clique.
    Beijing seeks to diminish the Dalai Lama's international 
influence. For instance, after delivering a commencement 
address in 2017 at the University of California, San Diego, the 
Chinese Communist Party-controlled Global Times condemned the 
university for inviting him to speak, and threatened to 
withhold visas. Officially atheist, the Chinese government 
absurdly claims it can select the next Dalai Lama. Such a 
decision is reserved to the current Dalai Lama, Tibetan 
Buddhist leaders, and the Tibetan people. If Sino-Tibetan 
issues do not get resolved, His Holiness has said that the next 
Dalai Lama will be born in freedom.
    While the Dalai Lama hopes to return to Tibet, the Chinese 
government waits for his death outside China, viewing it as a 
key to resolving Sino-Tibetan issues. However, the consequences 
of his death in exile will be unimaginable to Tibetans. Some 
may resort to violence and others to self-immolation.
    (3) The Chinese government enforces intrusive restrictions 
on public and private religious practice. This includes 
monitoring the training, assembly, selection, and education of 
Tibetan Buddhist religious leaders. The government seeks to 
strike at Tibetan Buddhism's heart by targeting Larung Gar, one 
of the largest Tibetan Buddhist institutes. The destruction and 
micromanagement there and in Yachen Gar exemplifies Beijing's 
goal of eviscerating the teachings and study of Tibetan 
Buddhism so that it serves the Chinese Communist Party and 
government goals.
    (4) The government imprisons subjects through sham trials 
and tortures prisoners of conscience to control Tibetan 
Buddhists. This includes the Panchen Lama. The Chinese 
government disappeared him more than two decades ago, then 
announced its own pick who most Tibetans will just reject. The 
government must provide videographic evidence of his 
whereabouts and well-being. I advocate for him in USCIRF's 
Religious Prisoners of Conscience Project.
    The government detained Tashi Wangchuk in 2016, after he 
spoke to the New York Times on Tibetan language, education and 
culture. He was tried in January 2018. No verdict was issued 
then. He could face up to 15 years in prison. The Chinese 
government targeted him because it believes that Tibetan 
language acquisition impedes the sinicization of the education 
system and Tibetan assimilation into the majority culture.
    Choekyi is a Tibetan monk imprisoned for his expressed 
loyalty to the Dalai Lama. He was sentenced to four years in 
prison for conducting separatist activities. His health has 
deteriorated in prison.
    (5) At least 152 Tibetans have self-immolated since 
February 2009. Chinese authorities allege that self-immolators 
threaten stability and security by committing terrorist acts in 
disguise, and act to prevent information being disseminated 
about them by threatening family members with punishment and 
detaining and torturing those suspected of involvement.
    (6) The long arm of China--the Chinese government has a 
long arm and a heavy hand in its quest to censor information 
and criticism about its actions in Tibet.
    The Chinese government in 2017 warned countries like 
Botswana and India about the Dalai Lama's planned appearances 
and praises the government of Nepal--where about 20,000 
Tibetans live, many in formal detention camps.
    The Chinese government's actions pose serious concerns for 
democratic norms and institutions in the United States. Along 
with pressuring UC San Diego, it works closely with the Chinese 
Students and Scholars Association to pressure other 
universities. Some characterize the group as a tool of the 
government's foreign ministry. Chinese students with the CSSA 
harassed me in 2008 when I was a doctoral student at the 
University of California, Santa Barbara. About 100 tried to 
disrupt a Tibet event. I was standing along with a Tibetan flag 
when about 30 surrounded and screamed at me, calling me a 
terrorist and a bastard. I stood my ground nonviolently.
    I also want to touch on Confucius Institutes in U.S. 
colleges and universities, and primary and secondary school 
classrooms. Its mandate is to promote cultural exchange through 
Chinese language and cultural instruction. A Chinese state 
organ selects the teachers and materials, thereby allowing it 
to promote Beijing's ideology and policy goals and soften its 
authoritarian image by helping shape public opinion.
    Finally, as an academic, I am very concerned about the 
Chinese government's attempt to censor and pressure foreign 
publishers like Springer Nature and Cambridge University Press 
to block content. Thankfully, Cambridge reversed course after a 
backlash, but Springer Nature did not.
    I end with these recommendations. Along with designating 
China a CPC for its violations of religious freedom, with 
specific sanctions associated with the designation, Congress 
should pass the Reciprocal Access to Tibet Act of 2017. USCIRF 
thanks Senator Rubio for sponsoring this bill.
    Send delegations to China, request to visit Tibet and 
advocate for prisoners of conscience and their families.
    The United States Government should appoint a qualified 
individual to serve as Special Coordinator for Tibetan Issues 
at the State Department as mandated by the 2002 Tibetan Policy 
Act.
    There should be sanctions against officials and agencies 
for participating in or being responsible for human rights 
abuses, including the Global Magnitsky Human Rights 
Accountability Act and the Global Magnitsky Act.
    Thank you for this opportunity to testify today.
    [The prepared statement of Mr. Dorjee appears in the 
appendix.]
    Chairman Rubio. Thank you so very much.
    [Applause.]
    Chairman Rubio. Dr. Green.

STATEMENT OF MICHAEL J. GREEN, Ph.D., SENIOR VICE PRESIDENT FOR 
 ASIA AND JAPAN CHAIR, CENTER FOR STRATEGIC AND INTERNATIONAL 
                         STUDIES (CSIS)

    Mr. Green. Mr. Chairman, Members of the Commission, thank 
you very much for inviting me and for your focus on this 
important issue.
    It is an honor to appear on this podium with Tenzin Dorjee, 
and particularly with Dhondup Wangchen whose voice is, I think, 
the most important we'll hear. I hope to add to their comments 
by framing Tibet issues in the context of U.S. policy towards 
China, geopolitics, and our national interests. I would ask 
that my written comments be submitted for the record.
    Those who argue that U.S. policy should somehow be 
distinguished from our values as a nation, I think, 
misunderstand both our interests and our history. I recently 
published a history of American strategy in Asia and made the 
argument with plenty of evidence that American statecraft has 
successfully prevented the rise of hostile hegemons in the Asia 
Pacific region, not just by force of arms or realpolitik, but 
by investing over the long term in democratic norms and open 
societies.
    In Tibet, as in many other parts of Asia today, our 
consistent support for those same universal values will have an 
important impact on whether China uses its growing power for 
coercion and hegemonic control or finds ways to contribute to 
regional prosperity consistent with the needs and expectations 
of her people and her neighbors.
    We have to recognize that the powerful aspirations of the 
Tibetan people for dignity, religious freedom, and cultural 
autonomy intersect with rising geopolitical tensions along the 
Himalayan Plateau. China's insecurity about this region is 
deeply rooted.
    In 2008, China's central military commission ranked Tibet 
as the most critical sovereignty challenge to the country, 
ahead of Xinjiang and Taiwan. The flipside of this insecurity 
is expansionism. Beijing has made dramatic moves to assert 
strategic dominance over the Himalayan Plateau at the expense 
of rival India.
    India and China together have 37 percent of the world's 
population, and only about 10 percent of the world's water 
supply. And they are both growing. China has begun damming 
rivers in the Himalayan Plateau and is poised to divert huge 
amounts of water away from India by damming rivers like the 
Brahmaputra into China. China has suspended agreements on 
sharing hydrological information and has defied international 
demands for transparency on their plans.
    Beijing has also made moves to establish military dominance 
in areas contested with India, paralleling similar moves to 
militarize artificial islands in the South China Sea, but in 
this case, at an altitude of over 10,000 feet. Satellite photos 
have shown that the PLA is militarizing the area of Doklam with 
helipads, roads, and hardened fortifications only dozens of 
meters from India's forward outpost.
    When India tested a ballistic missile capable of hitting 
China recently, the official Chinese media--by the way, China 
already has the ability to hit India--called for a 
counterstrategy of expanding into the Indian Ocean.
    So the Tibetans' struggle is occurring at the epicenter of 
China's aggressive attempt to consolidate and expand control of 
its periphery within the Indian and Eurasian continent.
    Finally, the Tibetan people's aspirations are colliding 
with the greatest vulnerability of the Chinese Communist 
Party--that party's inability to accommodate the growing and 
legitimate spiritual and social demands of all of its 1.4 
billion citizens. This includes the most senior figures in the 
Communist Party. We know, for example, that Li Peng--the 
premier who ordered the crackdown in Tiananmen--converted to 
Tibetan Buddhism in his old age. We hosted His Holiness the 
Dalai Lama at CSIS in 2007, and His Holiness put it this way; 
he said, when you are in your 80s, socialism with Chinese 
characteristics is not so useful.
    The spiritual threat of religious freedom in China is 
something we have to recognize is a regime threat for the 
Chinese leadership. Driven by all of these insecurities, 
Beijing has chosen to turn away from dialogue with His 
Holiness's representatives on legitimate questions of religious 
and cultural autonomy; and instead, as you have heard, to try 
to break the will of the Tibetan people through a combination 
of repression, Hanization of the Tibetan Autonomous Region, 
massive economic infrastructure building, and political control 
of the succession to the 15th Dalai Lama.
    Steady U.S. support for the Tibetan people is, therefore, 
morally and strategically imperative. If we turn a blind eye to 
coercion by China in any one part of Asia in order to win 
support by China in another, we will find we are on a slippery 
slope. It could be Tibet today. It could be Taiwan tomorrow. It 
could be Japan the next day.
    U.S. support is also necessary to demonstrate to the 
Tibetan people that His Holiness was right to champion the so-
called Middle Way of dialogue with Beijing within the context 
of China's own constitution, and that those long-suffering and 
brave people in Tibet and the surrounding regions do not have 
to choose either surrender or violence.
    In addition, U.S. support is necessary--consistent U.S. 
support--to solidify solidarity around the world for Tibet. 
That solidarity faltered in 2009 when President Obama chose to 
hold off meeting with His Holiness in Washington. And in Europe 
and Australia and around the world, there was a palpable effect 
on what governments were willing to do in terms of taking risks 
vis-a-vis Beijing to support His Holiness.
    The Trump administration has not yet fully stepped up to 
this reality, in my view. The administration's announcement of 
a free and open Indo-Pacific strategy strikes me as the right 
framing of how we bring our values to policy towards Asia. But 
as far as we know, this President is the first in two decades 
who has not raised Tibet in meetings with his counterparts. We 
don't know if the Secretary of State has.
    The United States still does not have a Tibet Coordinator 
as required under legislation. I understand that the Secretary 
of State wants to have the Undersecretary for Civilian 
Security, Democracy, and Human Rights fulfill this role, which 
I think would be okay. But there is no nominee for that 
position. I looked on the website for that Undersecretary's 
office, and I searched the word ``Tibet'' and found eight 
references to Tibet being part of China. The ninth reference 
was to the human rights report two years ago. And that was 
about it.
    The administration should support, in my view, the 
Reciprocal Access to Tibet Act of 2017. As a scholar, as a 
former senior policymaker, I favor dialogue with China on all 
issues, including this one. In 2007 and 2008, I was involved in 
a dialogue at CSIS sanctioned by the Chinese government with 
Tibetan authorities about the situation in Tibet. That dialogue 
dried up. The Chinese side cut it off. I think we need leverage 
to pry open access and dialogue on Tibet and the legitimate 
rights of the Tibetan people.
    There is, as I understand it, a Presidential waiver in the 
legislation. I think the administration can use this when Party 
officials from the Tibet Autonomous Region are ready for 
serious dialogue. But without some kind of pressure, I don't 
think we are going to get the Chinese side taking us seriously 
on this issue, in particular, as China closes off the region to 
journalists, scholars, officials, and tourists. Reciprocity is 
a critical part of American or any country's foreign policy 
strategy.
    I would conclude by emphasizing that what I am describing 
and what I think U.S. policy is aiming at is achieving what 
Beijing itself has claimed to support in its own constitution 
and in prior dialogues with representatives of His Holiness, 
which is respect for the cultural, religious, and social rights 
of the Tibetan people. And to retreat from that support now 
would be to signal acceptance of the logic that Chinese power 
must be accommodated even when that power is used to reverse 
rules, norms, and understandings that are vital to peace, 
prosperity, and U.S. interests in this vital region of the 
world.
    Thank you very much.
    [The prepared statement of Mr. Green appears in the 
appendix.]
    [Applause.]
    Chairman Rubio. Thank you all. I am going to yield my 
opening questions to Senator Daines.
    Senator Daines. Thank you, Chairman Rubio and 
Representative Smith. Thanks for your leadership too, on this 
important commission. I want to thank you for holding this 
hearing and thanks to the witnesses for coming before us and 
providing your perspective and expertise on this very important 
topic.
    I spent about half a decade, a little more than half a 
decade living in China as an ex-pat, back in the 1990s working 
for Proctor & Gamble. I have led congressional delegation trips 
to China while I have been serving here in Washington, D.C. 
I've had the opportunity to travel across the country. In fact, 
in 2016 when I led the congressional delegation, Senators and 
Members of the House, we went to Urumqi. We got to see the 
prominent Uyghur Muslim population as well.
    Last year we were in Tibet. And we got to see firsthand the 
Buddhist monks and, importantly, how they have been preserving 
the culture and their religious heritage there. It has allowed 
me to see firsthand the human rights abuses and challenges that 
Chinese people face and the positive impact that an American 
presence can have in that country. In fact, our two youngest 
children--we have four children--our two youngest were born in 
Hong Kong back in the 1990s.
    So I really see Asia as really part of my experiences. When 
I think about China and talk about it, it is not in some 
theoretical construct. It is something that we have lived and 
breathed, whether living there or with subsequent visits.
    These travels have provided me the opportunity to raise 
critical issues impacting Tibet related to human rights, 
religious freedom, having access in Tibet, face-to-face 
dialogue with Chinese officials and leadership. In fact, just 
yesterday, yesterday afternoon, I had the opportunity to raise 
many of these issues directly with Ambassador Cui. He came to 
my office and we had a good conversation. While much work needs 
to be done, it is essential that individual Members of Congress 
and the U.S. Government as a whole continue to press China on 
addressing and reversing course on their ongoing human rights 
and religious freedom abuses.
    A question for Dr. Dorjee--in your testimony, you focus 
significantly on the detention of prisoners of conscience. How 
can Members of Congress and the public at large best assist 
efforts to secure the release of prisoners or advocate on their 
behalf where they are detained in Tibet or elsewhere in China?
    Mr. Dorjee. Thank you, Senator Daines, for the opportunity 
to respond to your question.
    As commissioner on the USCIRF, we have our Prisoners of 
Conscience Project. So that tells you how much importance we 
give to freeing the prisoners of conscience.
    And what Members of Congress could do, given the 
opportunity, if you could raise not only the individual cases 
of the prisoners of conscience, but also the policies and laws 
that have led to that. So that would be very helpful.
    And to my understanding, when you use your bully pulpit to 
advocate for the prisoners of conscience, that makes a 
difference. Of course, China is not going to let every prisoner 
of conscience be free. But that being said, when we keep 
putting pressure on them, at least that makes a difference in 
their lives, maybe they might get a little breather through 
such influence.
    And also, Members of Congress could adopt prisoners of 
conscience and especially in your case when you visit China and 
you're meeting with high officials, if you could raise the 
issues, that would also make a big difference.
    Senator Daines. Dr. Green, Dr. Dorjee just mentioned about 
making a difference. I have fond memories of our time when we 
were expats living in Guangzhou. We were able to see how the 
treatment of children in orphanages was improved because of the 
presence and interaction of Americans.
    We would go there and visit on Saturdays. We would hold 
these babies that oftentimes were not receiving the human 
touch. And we noticed there was a built-in, almost, 
accountability, that an orphanage started getting cleaner and 
the care of these children improved because we were showing up 
on Saturdays to directly take care of these children and 
literally just to hold them.
    I believe this principle can be applied more broadly as 
well. I have called on Secretary Tillerson and this 
administration to appoint the Special Coordinator for Tibet. I 
think that is an important step.
    If there was a more substantial U.S. presence in Tibet, 
such as a U.S. embassy, a consulate, a special coordinator, 
what potential impacts would there be regarding the issues of 
religious freedom and human rights causes in Tibet?
    Mr. Green. The question is excellent, Senator. Thank you.
    I lived in Asia about six years, the same timeframe. In my 
case I was in Japan. I have similar fond memories, traveled 
extensively throughout China.
    The crackdown you have heard about is happening as 
transparency is being closed. It is not just journalists or 
diplomats, it is scholars, American scholars of Tibet who are 
being denied access.
    If we had a consulate in Lhasa, if we had a presence there, 
it would do a number of things. It would allow academic 
exchanges because that is a part of what our consulates do. It 
would allow officers from the U.S. State Department to monitor 
the cases of individual political detainees, to monitor trials. 
It would allow them to provide accurate reporting of what is 
happening to the Tibetan people.
    And as I was mentioning in my testimony, with respect to a 
massive infrastructure program and military program in the 
Himalayan Plateau, that is destabilizing. That is fundamentally 
raising tensions. It is an area where we need presence and 
access not just because of the Tibetan people's aspirations, 
but because of the negatively spiraling geopolitics between 
China and India.
    Senator Daines. So in light of that, Dr. Green, what role 
do you think human rights would play within U.S. policy towards 
China as it relates to the broader issues of national security 
as well as these economic tensions?
    Mr. Green. I come at this as a historian and a scholar, but 
also for five years I was the Special Assistant and Senior 
Director for Asia on President George W. Bush's NSC staff. And 
in 2007, President Bush told Hu Jintao--with whom he had a good 
relationship--he said, I have good news and bad news, which do 
you want first? And Hu Jintao had never been asked a question 
that way. He said I will take the good news. President Bush 
said, I am going to go to the Olympics. And then President Hu 
tried to end the meeting without the bad news. And the 
President said, wait a minute! You have to hear the other part. 
I am going to meet with His Holiness in the Congress and 
present him with the Congressional Gold Medal.
    It is possible to be clear and consistent on human rights 
and democracy and have a productive relationship with Chinese 
counterparts. The key is to be consistent.
    It was in that same timeframe that I was able to meet with 
Dai Bingguo, the state councilor. It was before the Olympics. 
The Chinese were very worried about their image. They worried 
about our election and they supported--the government supported 
this dialogue I mentioned on Tibet, mostly scholars, but with 
some participation from government. It was quite productive. 
When the Olympics ended, when our election happened, they 
dropped it.
    So I think it is possible to have a clear voice on human 
rights. I think it is possible to have a dialogue with China on 
these issues. But we are going to have to find ways to leverage 
our relationship with China--to push them, frankly, to come to 
the table.
    Senator Daines. So in that regard, you highlight that it is 
readily apparent that China has moved away from dialogue with 
the Dalai Lama. What are the prospects for reengagement, in 
your opinion, between the PRC and the Dalai Lama? And are there 
ways the U.S. could be productive towards that end?
    Mr. Green. It is harder now than it was in 2007 and 2008. I 
think part of that is because of the financial crisis which I 
think gave leaders in Beijing an overinflated sense of their 
own power and leverage.
    Xi Jinping has a different approach to all of these issues. 
Civil society space is closing in China, including for U.S. 
companies, as you know. So it's a much harder operating 
environment, and the Chinese side has passed legislation, as 
you know, declaring they'll decide who the successor to the 
Dalai Lama will be.
    So in diplomacy, when you put that many obstacles it's hard 
to restart. But I think it is possible.
    Number one, President Trump, Members of Congress as well, 
but President Trump should clearly call on Xi Jinping in his 
meetings, even if it's done privately, to resume this dialogue.
    Number two, we should be funding and supporting the 
Coordinator for Tibet. We should be reaching out as part of our 
diplomacy not just with China, but with Europe, with Japan, 
with Australia, Korea, and India to support this as well.
    Senator Daines. Alright. I am in extra innings right now. 
Just to wrap up, I had one last question for Dr. Dorjee. In 
your testimony you mentioned that--thank you, by the way, Dr. 
Green. You mentioned in your testimony that the European 
Parliament passed a resolution earlier last month in support of 
human rights activists in China and called for the immediate 
and unconditional release of targeted prisoners of conscience. 
What has been the reaction from the Chinese government on this 
resolution?
    Mr. Dorjee. I don't know of any expressed reactions by the 
Chinese to this yet, but we can all guess that they are not 
really happy at all when we try to put pressure on them.
    If you would allow me to just go back to the previous 
question you asked. One of the things many Members of Congress 
have tried to do--we should have an embassy in Tibet. That 
would really make a big difference, our physical presence in 
Tibet. That would also--because according to the Tibetan Policy 
Act of 2002, an ambassador has to engage with human rights 
activists. And in my case, the Panchen Lama, prisoner of 
conscience, is very important. I do not know anything about 
him, but if you do have a presence there, an ambassador would 
at least find out reliable information about his well-being.
    Senator Daines. I think that gets back to--closing 
comment--engagement generally produces better outcomes.
    Mr. Dorjee. Definitely.
    Senator Daines. An on-ground presence. We have seen that 
over and over again. That is why I support moving in that 
direction, certainly an embassy consulate there in Tibet.
    So thank you.
    Mr. Dorjee. Thank you much.
    Chairman Rubio. And the time is fine because you took 
Senator Gardner's time and yours, so----
    [Laughter.]
    Chairman Rubio. To the Cochairman.
    Cochairman Smith. Thank you so very much, Mr. Chairman. Let 
me just ask a few questions and I will put them out there, and 
please, whoever would like to take them on.
    Mr. Wangchen, thank you for, again, your being here, your 
unbelievable courage. China's pervasive use of physical and 
psychological torture, including the tiger chair which, sadly, 
you have experienced, is well documented. It is barbaric and 
even the Special Rapporteur for Torture at the United Nations 
has chronicled as best they can in the past just how terrible 
China is when it comes to torture.
    Yet when you google torture in China--and I have done it in 
Beijing at a cafe--you find everything that the Japanese did, 
and they did horrible things to the Chinese people, the Rape of 
Nanking and the use of rape and other terrible degrading 
actions, but also the use of torture. And you also get Gitmo 
and allegations of mistreatment there. Nothing about the U.N. 
Special Rapporteur--Manfred Nowak--his statements or any of 
that because it is all censored.
    I mentioned earlier that in 2006 I had a series of hearings 
about the enabling of the propaganda organs of China. That goes 
equally, if not more so, for what they do to Tibet in painting 
a Potemkin village. And yet they continue to this day to be a 
part of that. As a matter of fact, much of their intellectual 
property has been ripped off since, and now we have other 
indigenous companies taking that over.
    I would like you to, if you could, in more detail talk 
about what the Chinese dictatorship did to you physically and 
to your fellow prisoners, because very often we will hear about 
the tiger chair, we will hear about the beatings, the electric 
prods under the arms and at the genital areas. Until we really 
say, what does that mean? How does somebody like yourself cope 
with that while you are undergoing it and then after the fact?
    I have written four laws called the Torture Victims Relief 
Act, the original and then three reauthorizations. From that I 
have learned about how the post-traumatic stress disorder 
suffered by many political and religious prisoners is off the 
charts--inability to sleep, flashbacks of memory. I am 
wondering how you cope with it now as well as during your 
horrible ordeal.
    Second, the fawning of the world media over Kim Yo-jong, 
the sister of Kim Jong-un--she, as we know, heads up the 
propaganda and agitation department. As a matter of fact, the 
Wall Street Journal, I think, did a very good piece called 
``The Twisted Sister,'' called her the ``twisted sister of 
Kim.'' In this room, Josh Rogin has written incisively about 
China. Fred Hiatt has done one superlative editorial after 
another that does not join the world press in fawning over the 
Chinese dictatorship.
    I remember when Hu Jintao was here and infamously President 
Obama had a press conference with him. And when asked a good 
question about human rights, Obama defended Hu and said, Well, 
they have a different culture and over time things will change. 
No, they don't.
    As Chairman Rubio--because he leads on human rights in so 
many places, including Cuba--dictatorships do not matriculate 
from barbaric behavior to peace and democracy and rule of law 
without a great deal of push and exposing. Yet our media so 
often just covers up what Xi Jinping and all of his 
predecessors have done. Xi Jinping right now--Mr. Green, you 
spoke to this--Professor Green, about things have changed. 
They've gotten worse, the NGO law as well as the law on 
religion. Xi wants to either control religion completely or 
eviscerate it. Of course when you talk about the Tibetan 
Buddhists and the passing, potentially, of the Dalai Lama and 
then they pick the next successor--which is outrageous. They 
are doing that with the Catholic Church as well--it is with 
bishops. If you could speak to that as well.
    The media, its complicity by not exposing, except for some 
notable honorable mentions, like I mentioned. On the Olympics--
I was there in the early 1990s. I met with Wei Jingsheng. He 
was briefly let out of prison to get Olympics 2000. They didn't 
get it. They called him back in and beat him almost to death 
because his high value political prisoner status did not buy 
them the Olympics in 2000. They got it in 2008.
    Scott Flipse, Frank Wolf, and I--Scott works, of course, as 
part of our key staff. We went and we met with Ambassador 
Randt. We met with others. We brought this commission's 
database and said, Don't just raise it, become Johnny One Notes 
about, Release the prisoners!, because right now they are 
keeping dissidents away from Beijing, away from journalists, 
and of course that goes doubly so for the Tibetans who are 
incarcerated usually in place, there.
    The question there is--you're right. We need that special 
envoy. There are other special envoys, including for combating 
antisemitism. This administration has a reluctance to name 
special envoys. That's got to change.
    But we do have some hope too. Maybe you want to speak to 
this as well. Senator Rubio, Senator Daines, and others worked 
so very hard to get Sam Brownback agreed to by the Senate as 
Ambassador at Large for Religious Freedom--Ambassador 
Brownback, when he was a Senator did H. Res. 483 on Tibet. He 
gets it. You read that resolution, you know without a shadow of 
a doubt--he gets it. Naming prisoners of conscience, Tibetan 
Buddhists who are being incarcerated and, of course, some of 
whom were killed--executed, and the importance of a robust 
response from the United States. So he's someone we all need to 
be--he was just confirmed, as you know--he needs to make this a 
priority, obviously, of the International Religious Freedom 
Office and do it right now. But we have a great friend there, 
and that's the reason for some hope.
    So just a couple of thoughts, if you could respond to any 
of it. Again, starting with you, Mr. Wangchen. How do you cope 
with what you have been through?
    Mr. Wangchen. Actually, I did not really have a choice not 
to be subject to such tortures. The Chinese authorities left me 
with no other choices.
    In fact, one time they brought a recording to watch to me 
and wanted me to record something. They use a psychological 
tape saying that if you record a message--at that time my 
parents, my wife, my children were in India. And so they said 
if you say that because the Tibetan Youth Congress in India was 
posing a threat to my parents, my children, and my wife's life, 
I have to make this documentary. If I say that, they said I 
would be treated leniently. Otherwise, they said I had 
committed a very major crime and would be prosecuted.
    Under such a situation we all are human beings, the same 
wherever we are. We all have pain. We have the same blood and 
the same flesh. So if under such a situation, if I were given a 
choice, I would have chosen to die rather than to suffer this. 
But I did not even have that choice.
    So I could see that they were trying to use me to serve a 
broader political agenda that they had. They would even say at 
one time that I should say that my cousin, Jamyang Tsultrim, 
who is in Switzerland, that he was the one who instigated me to 
make that documentary.
    Or they would say, whatever happens, they would always 
blame the Tibetans outside or His Holiness the Dalai Lama, etc. 
So that is what they were trying to do.
    So in 2012, there were several self-immolations in Tibet. 
Then the Chinese authorities went to schools forcing the 
students to denounce His Holiness the Dalai Lama. But 
obviously, the Tibetan students, they could not do anything 
that was untruthful like that at all.
    So these are some of the things that they were trying to 
do. So because of that, in the schools, the students protested 
saying that it was injustice. Therefore, many of the students 
were detained.
    The Translator. But he is saying that overall because of 
all of these factors, he was able to consider these as the 
Chinese tortured him, then to say that I need to overcome all 
of these.
    Cochairman Smith. One other thing very briefly to put on 
the table and that is the transfer of population, the Han 
transfer. I know the Dalai Lama has written about that.
    Any insight you can give as to how they are displacing 
Tibetan Buddhists, indigenous people, by bringing others in. 
Back in 1987, I remember reading an op-ed by John Avedon in the 
Washington Post called The Rape of Tibet. And he talked about 
an issue that I had been working on since 1983, and that is 
forced abortion and coercive population control pursuant to the 
one child per couple policy which, obviously, applies to all 
people, but it is used with special telling effect as an act of 
genocide against the Uyghurs as well as against the Tibetan 
Buddhists. So any insight any of you might have on that.
    If you kill the child because they happen to be Tibetan 
indigenous persons, that is a part of this transfer of 
population. They just don't exist. It is an insidious crime 
against humanity, obviously, but it very seldom gets any focus.
    Mr. Dorjee. I would like to respond to something you raised 
in the second part of the question. As Commissioner of the 
USCIRF, I want to tell China that when the international 
community and the U.S. demand human rights in Tibet, we are 
doing that following international standards, universal human 
rights.
    I am an intercultural communications scholar and we don't 
define human rights in terms of specific cultures. We are 
looking across cultures and we are using international 
standards to talk about that.
    So China, if it wants to be a part of the global community, 
must learn to respect international standards. You cannot have 
a double standard here.
    Another issue that you have raised is the reincarnation of 
His Holiness the Dalai Lama, which really concerns most of us. 
It has unimaginable consequences if His Holiness the Dalai Lama 
would pass away in exile. China thinks they have a perfect 
solution to this, because they only see the Dalai Lama as part 
of the problem although we have told them a thousand times--the 
Dalai Lama is the solution to the problem. Hello. Listen.
    So, of course, they think they can do exactly like they did 
to the Panchen Lama. They will have another pick, fake out the 
traditional system and have another Dalai Lama. But China must 
know that if Sino-Tibetan issues do not get resolved, His 
Holiness the Dalai Lama will not be reborn in Tibet under their 
control. He will be reborn in freedom.
    Why I say that is because in the 1980s I had the privilege 
to translate for the Dalai Lama. And when we were in Delhi (he 
was speaking at Delhi University), an Indian journalist asked 
whether he would be the last Dalai Lama and about the Tibet 
issue. His Holiness said then if Tibet issues do not get 
resolved, he would be reborn in a free country because it does 
not make any sense for the next Dalai Lama not to be able to 
continue the work and unfinished tasks of the previous Dalai 
Lama.
    So China should know that they may be able to pick the next 
Dalai Lama, but not the real one. The real one will be born in 
a free country. So I want to send that message strongly.
    Then the next one--there is already--Tibetans have become 
the minority in our own country. There are more Chinese there 
and the population transfer can really make the demographics 
shift.
    I am a scholar in this matter where we talk about ethno-
linguistic vitality. When the demographic shift changes, it is 
very hard at a certain point in time to be able to bring the 
balance back. So it is a very serious matter, as you already 
know that they not only bring more Chinese civilians to Tibet, 
but they also started to move the Tibetans en masse from the 
pasturelands into some concrete buildings somewhere, they build 
them up, and are changing the whole Tibetan culture in many 
different ways. So those are very serious matters, and I am 
sure my colleague Michael Green will have more things to say.
    Mr. Green. If I may, Congressman, on that last point. 
Beijing appears confident that their law decreeing the next 
Dalai Lama will be determined by the Chinese Communist Party, 
will allow them to continue suppressing dissent in Tibet and 
ultimately win.
    All indications from scholars who know this region, who've 
traveled there, are that the opposite will happen, that China 
will find itself with greater instability, greater violence, 
greater repression and human suffering. That's one of the many 
reasons why it's in our national interest to push for the PRC 
to deal with His Holiness because this is not going to get 
better--for China either.
    Second point, on your question or your comment about the 
``twisted sister'' in North Korea--I also found the U.S. press 
pretty--present company excluded--pretty fawning, and it was 
rather shocking when you know about what's happening in North 
Korea.
    I, in that context, mention when I first started studying 
Asia in the 1980s, my professors and diplomats taught us that 
Asian values are different and that these kinds of 
authoritarian repressive regimes are culturally accepted. Then 
around the time I graduated, four major Asian countries 
democratized.
    I think today within the academy, among scholars, and also 
within the State Department, for a new generation of diplomats, 
this is no longer a debate where the China hands are arguing 
with the human rights hands, really. I think the most qualified 
people we have on the China desk and in our embassy in Beijing 
want to move out on this issue.
    They want to have a consulate in Lhasa. The problem is they 
do not have guidance from the top right now. And that's why the 
Tibet coordinator and pushing for the President to raise this 
issue are so important because the troops, our diplomats, are 
ready to take this on. They're not fighting it the way, 
perhaps, State Department officials might have 20 years ago.
    Chairman Rubio. Thank you.
    Mr. Wangchen, let me begin by asking you, when you were in 
prison, were you aware of the international advocacy on your 
behalf? And if so, could you give us a sense of the impact that 
it may have had on you and on those who supported you?
    Mr. Wangchen. I did not know that there was this widespread 
campaign on my behalf, internationally, when I was in prison. 
But I did know that there were people who were working--trying 
to work on my behalf.
    Oftentimes, it was the Chinese authorities themselves who 
would come and tell me--why is there so much interest in your 
cause outside? So I want to say that from my own experience, 
any voice that is raised on behalf of political prisoners has a 
very positive impact even on their lives. I can say from my own 
experience that it is always good to raise voices on behalf of 
the political prisoners.
    In terms of restrictions, I can say that when there was 
more interest, they would restrict my movement. They would 
monitor me more thoroughly. They would search my things more 
thoroughly, etc. But at the same time, I can say, from the 
attitude of the prison officials or from other prisoners, that 
their attitudes change when there is international interest in 
issues like mine.
    Chairman Rubio. Has your family back at home and those 
close to you, have they experienced any kind of official 
pressure since you departed?
    Mr. Wangchen. I have heard that since I left there the 
Chinese authorities had visited my sisters and my friends 
interrogating them as to how I was able to go about escaping, 
who arranged all of these things. I have 10 family members. 
None of us read and write, so therefore, the Chinese 
authorities made my sister sign some things, some documents, 
etc. And they have been wanting to know, sending Uyghurs to 
interrogate my family members many times.
    Even my wife's family members have also been interrogated 
on this issue. So it is just not my side of the family, even my 
wife's family members have also been interrogated.
    Chairman Rubio. Dr. Dorjee, in your written testimony, you 
talked about your own experience of China's ``long arm in 
academia.'' Could you tell us a little bit more about what you 
observed, specifically as it relates to the Chinese 
government's use of the Chinese Students and Scholars 
Association and the Confucius Institutes?
    Mr. Dorjee. Thank you very much. First I would like to 
express my gratitude for your leadership and initiative in 
these matters.
    I think we all know that in China and Tibet everything is 
controlled, micromanaged, and strategized. And we know that. 
That's why we are making these voices to make a difference 
there. But what is less known in the outside world is the 
Chinese long arm that is extending everywhere in the world and 
also in this country. As I reported in my testimony, in 2008, 
when I was one of the two Tibetan students at UC Santa Barbara, 
there was a Tibet event. Somehow I think it got reported to the 
Chinese consulate in Los Angeles--they must have organized this 
and brought about 100 Chinese international students.
    Each of us were surrounded by about 30 of them. And they 
were screaming and yelling, and they brought this huge Chinese 
national flag. They wrapped me up because I had a Tibetan flag. 
And I said to them, Look, learn to respect my flag too. I 
respect your flag, but let's have a dialogue. But they wouldn't 
listen to that.
    What was behind that was the Chinese Scholars and Students 
Association which exists at many universities. Also as I 
reported, Confucius Institutes in the classrooms, this is 
making a huge difference in our academic freedom as you know 
very well.
    Another thing I want to add, if I may, is I just finished 
reading one of the most prominent Chinese dissidents--student 
leaders--Tiananmen Square, Chai Ling's ``A Heart for Freedom.'' 
She was able to escape here and enjoy the freedom, but then 
what she realized was, after getting a good education at 
Harvard, at Princeton, when it came time for her to find a job, 
many companies would say, oops, you are very qualified. We are 
very sorry--because we have connections with China we cannot do 
it. So that is the invisible hand in many things happening 
here, and we really have to voice our concerns and make a 
change there.
    Chairman Rubio. And, again, what you are describing is the 
use of a student organization to basically oppress and hassle 
those who have views or point to facts that run contrary to the 
narrative that they seek to pursue. And it is one of the things 
that we are most interested in and we started last week by 
writing to all of the higher academic institutions, including 
one high school, by the way, in the state of Florida.
    One of them has already canceled the contract, the 
University of West Florida. And we hope that the others will 
re-examine that arrangement and ensure that at a minimum none 
of these activities are occurring in those institutions. I 
suspect that a number more will follow the lead of the 
University of West Florida, particularly after yesterday's 
testimony by the Director of the Federal Bureau of 
Investigation, about how they have been very interested and 
have been keeping a close eye on how the Confucius Institutes 
and the student organizations have been used in this country.
    Dr. Green, I wanted to ask you because you've talked about 
the State Department. And you said that the people in the 
trenches on the ground level are all ready to go on this and 
other issues. But you also said they needed direction from the 
top. From that, we are going to have a hearing tomorrow on a 
nominee, that will oversee this portfolio to the State 
Department, currently acting in that capacity.
    I think it is relevant to ask, What is the perception of 
the State Department, not the China desk in particular, but 
just the general leadership over the broader portfolio in the 
Asia Pacific region; what is the perception and/or the reality 
of what they prioritize? Is this a pro-engagement direction at 
the expense of human rights and all of the sorts of issues we 
have talked about here today?
    In essence, is it one of those ``we can't raise these 
issues up because we want to be able to work with them on these 
other issues, and this irritates them'' things, or is it 
neglect? Basically, they just haven't paid attention to it. How 
would you describe in the most honest terms possible what the 
direction of that area of the State Department is today as a 
general matter?
    Mr. Green. As I said earlier, Senator, I think that the 
generation of Foreign Service Officers who now lead the East 
Asian Bureau and play some of the most prominent roles in our 
embassies embrace the values component of our diplomacy. And 
there are Foreign Service Officers who stand in the rain for 
eight hours outside of courtrooms in Guangzhou to let the 
Chinese authorities know that we are watching the trial of a 
dissident, for example. And they are dedicated and they take 
personal risk.
    The problem they have is governments in the region don't 
view them as empowered right now. We don't have a confirmed 
Assistant Secretary. We don't have a Tibet Coordinator. Until 
we have those confirmed people in office, then the diplomats in 
the trenches are not going to be seen as empowered by the 
administration and the Congress.
    So getting someone in the State Department confirmed in the 
Assistant Secretary slot, in the Tibet Coordinator slot, the 
Undersecretary slot will be critical, key embassies like Korea. 
The view right now in the region is that the State Department 
is not a major player, and I think they are ready to be, and we 
need to empower them.
    Chairman Rubio. Just to be clear, not just putting someone 
in those positions, but the right person because the wrong 
person would also de-emphasize. For example, let's say that 
someone at the State Department was helping a major American 
corporation write an apology for having mentioned the issue of 
Tibet; that would not be the kind of people we want to see 
involved in this.
    Mr. Green. I am a friend and enthusiastic supporter of the 
candidate, the nominee to be Assistant Secretary. But I am 
certainly hoping, Senator, that you are going to ask some hard 
questions.
    For example, the administration has put forward the Free 
and Open Indo-Pacific concept. The words ``free and open'' to 
me suggest that our values are going to be a critical part of 
our diplomacy. I hope that in the hearings those dimensions of 
our foreign policy are emphasized.
    I hear rumors--I don't know if they're true--that within 
the State Department there is some guidance to not use the 
words ``free and open,'' but simply to call it our Indo-Pacific 
Strategy. Words matter.
    So I think that you and the Senate Foreign Relations 
Committee have an important--if I may say so--an important role 
in using these hearings to answer those questions and get 
nominees to put on the record not only their priorities but the 
actions they are going to take.
    The candidate for--the nominee for Assistant Secretary is 
not responsible for nominating or appointing the Undersecretary 
who would, I assume, be the Tibet Coordinator. But that's an 
appropriate forum to push the administration, I think.
    Chairman Rubio. My final question, and then the Cochairman 
is going to wrap up. He has a couple more questions.
    The term ``community of common destiny''--are you familiar 
with its use repeatedly in recent times by the Chinese 
Communist Party in international fora? Have you heard that 
terminology?
    Mr. Green. I have heard that and other similar phrases.
    Chairman Rubio. And basically, that phraseology, by the 
way, has been rejected by a number of countries. Vietnam stands 
out as one, India another, on different occasions, as being 
part of a communique, as an effort not just to change the 
dynamic of international politics, but the rhetoric of it.
    And it is an effort--I use this forum to point that out--it 
is an effort to change the rhetoric and language and the 
terminology to basically argue towards a world in which the 
values that we are talking about here--democracy, freedom, 
human rights--are de-emphasized. Even alliances are de-
emphasized.
    And we enter some new order that involves ``partnerships,'' 
and judging human rights by a different standard and non-
interference. It's the same concept that you see when they have 
an Internet Freedom Conference by one of the leading oppressive 
governments in the world against Internet freedom. So I only 
raise that because terminology matters. And you see it used 
repeatedly as a weapon in the case of Tibet, but others also.
    Just rhetorically, is it your experience that on this 
particular issue regarding Tibet, but on the broader issue of 
China's government trying to reorder global affairs, that we 
need to keep a close eye on the use of language, of the words 
being used because they are certainly trying to replace what 
human rights and self-determination means?
    By the way, it is not just limited to Tibet. Many of us 
were deeply disappointed to see the recent decisions by the 
Vatican, allowing for the first time in human history, 
certainly in the history of the Church, for its leadership to 
be appointed by--certainly the modern church. I imagine you can 
go back to the 1500s and we had some pretty bad appointments--
but certainly the modern world.
    So language matters. And the words that are being used, we 
need to--because they do not mean the same thing.
    Mr. Green. I could not agree with you more, Senator. I have 
written about this as an academic and in policy terms.
    Xi Jinping tried to convince the Obama administration to 
endorse a concept called the New Model of Great Power 
Relations, that to avoid conflict, U.S. and China had to have a 
condominium as major powers. And in this formulation, Japan, 
India, Korea, Australia, democracies were second-tier powers.
    Senior people in the Obama administration embraced this. 
The Chinese then tried to get the Trump White House to support 
what they called a Global Strategic Partnership, same 
rhetorical device to suggest that China and the U.S. would 
arbitrate issues, no values--Japan, India, these other powers 
were secondary.
    One of the things I find compelling about the 
administration's Free and Open Indo-Pacific concept is a 
complete rebuttal of that, by design, well received in India, 
Japan and Australia. So the words matter a lot. We are not 
always attentive to them, but within Asia when this idea of a 
new model of U.S.-China relations as great powers started to 
get currency with some senior officials in Washington, it had a 
major effect on how Japan, Korea, Australia, Vietnam viewed our 
staying power and our commitment to our values.
    So I couldn't agree with you more, and I think it is an 
important area for the Congress to pay attention to.
    Chairman Rubio. My favorite line in any hearing, ``I 
couldn't agree with you more.'' I love that.
    [Laughter.]
    Chairman Rubio. Thank you.
    Cochairman Smith. Thank you, Chairman Rubio.
    And thank you for your answers to all of our questions 
earlier. I do have just a couple of final questions.
    One, when is the world, in your opinion, going to get more 
aggressive with regard to--I mean, two Nobel Peace Prizes, 
obviously, the Dalai Lama and Liu Xiaobo, he dies, does not get 
the medical attention that he needed. And, of course, the Dalai 
Lama got the Nobel Peace Prize in 1989.
    Liu Xiaobo's wife is doing terribly and we have made 
requests, demands, every other kind of admonishment to the 
dictatorship to let her come here, or at least treat her with 
respect. And it's a microcosm of what they do every single day 
in Lhasa and elsewhere in Tibet as well as in other places in 
China throughout the mainland.
    So my question is, I am worried about this administration 
not being as focused. I mean the last administration dropped 
the ball in a major way. Previous administrations have dropped 
the ball.
    Bill Clinton, who criticized President Bush, the first one, 
and talked about coddling dictatorship, then coddled like 
nobody else before had coddled dictatorship, including bringing 
in the operational commander of Tiananmen Square--and gave him 
a 19-gun salute at the White House which I continue to believe 
was outrageous. He should have been sent to The Hague for 
prosecution for crimes against humanity, rather than been given 
those honors.
    So we seem to be ``past is prologue,'' on the verge of 
repeating many of those same mistakes unless there is a game 
changer. I note with some gratitude, real gratitude, that 
Secretary Tillerson named China as a Tier-3 Country pursuant to 
the Trafficking Victims Protection Act. I wrote that law, so 
I've watched that very carefully. We tried repeatedly to get 
previous administrations to do it, not just as an automatic 
downgrade which happened once during Obama.
    And it is also a CPC country because of its religious 
persecution. But both of those laws--and it hasn't happened on 
trafficking--have a consequence action, a penalty phase. We 
need to see penalties. Our civil rights laws work better 
because there are real tangible predictable consequences when 
others, colleges, for example, commit to them. So you might 
want to speak to that.
    Finally, on the Confucius Institutes, I have asked the 
Government Accountability Office to do a huge study on what 
their influence is, what the parameters are of their 
existence--there are 118 of them at least, three in my state of 
New Jersey--and what kind of baggage they carry in terms of 
their soft power. They are here to influence. It's a way of 
getting some additional money for colleges and universities in 
the United States. And they may even think it is prestigious.
    But if you're part of a propaganda long arm, what good are 
you really doing? And this administration, the Trump 
administration talks about reciprocity. Where is the 
reciprocity for us to have unfettered access to the Chinese 
venues or campuses, to be able to speak boldly about human 
rights and religious freedom and all the other? They have to 
pull their punches, obviously, when they are in-country. So if 
you want to speak to that as well.
    Mr. Green. Well, I am the--if I may?
    Professor Tenzin Dorjee will also have experiences as a 
scholar. I am a professor at Georgetown University with the 
Confucius Institutes. We do not have one at Georgetown. We are 
a pretty well-endowed major university. Some of our sister 
Jesuit colleges and universities do. When I visited and asked 
about it, the teachers are all very different. Some of the 
teachers sort of laugh off instructions from Beijing to teach 
certain things about Taiwan or Tibet. Others faithfully follow 
Beijing's instructions.
    My general view on this one is that there should be much 
more scrutiny. But ultimately, as an academic, I think 
universities have to police themselves. And there are ways to 
have these institutes, but they have to have an agreement with 
complete academic freedom, and they have to be monitored by 
faculty. And that has not happened in many cases.
    Cochairman Smith. Can any of them teach about the Dalai 
Lama, for example?
    Mr. Green. Well, I think the curriculum should be approved 
by the faculty at these universities. And there should probably 
be committees on the faculty with China scholars or outside 
advisors that take a look at the curriculum. But in principle, 
the demand for learning Mandarin is enormous. And there are not 
enough dollars in a lot of schools to fulfill that. So I don't 
have a problem taking the money and the instructors. I think 
universities have to be responsible for ensuring academic 
freedom, checking the curriculum, the kinds of things that I 
think many faculty would like to do. If you empower the faculty 
in the process, they will put pressure on their own 
administrations.
    Cochairman Smith. But if I am a college university 
president--one of their prime missions is to find spigots of 
funds.
    Mr. Green. Yes.
    Cochairman Smith. It is counterproductive from that 
perspective to be monitoring closely the exclusion of the Dalai 
Lama and Tibetan Buddhism and the terrible atrocities committed 
against Tibetan Buddhists as well as every other human rights 
abuse. You just bypass it, it never comes up, and you talk 
about a great culture, which China is. It has been for 
centuries. The people are unbelievable.
    But you still get this very Potemkin village perspective 
about what's going on in China. And I find that with Members of 
Congress. They go on a trip, and they are shown the sights in a 
way that--and we say, Raise human rights issues! Get our 
database from the China Commission and bring up names!
    And you'll appreciate this. When Frank Wolf and I and Scott 
Flipse were in Beijing, Condoleezza Rice was on her way in, and 
all the talk was, What venues will they go to watch? I said, 
heck--I love the Olympics. I love sports. Hopefully we all do, 
but not at the exclusion of--Get prisoners out! Here is a 
golden opportunity to do so.
    Our database, when we compared it to what they had at the 
embassy and at the State Department, theirs was paltry. One of 
the Foreign Service Officers said, You've got a much better one 
than we have. It shouldn't be that way. They're the State 
Department. They are there engaging every single day.
    So I am very worried about who is in the classroom 
monitoring curriculum. It could be a barebones curriculum and 
doesn't get into depth. And yet, the Dalai Lama--and when, God 
forbid, they pick the next Dalai Lama, will there be at the 
Confucius Institutes--what an atrocity that is! They have no 
right to do that.
    Mr. Green. This is a complicated issue, and it is a 
problem. On some campuses, not mine, Chinese Student 
Associations are using the vogue language and accusing Tibetans 
of micro-aggression and things like that. There are Chinese 
Student Associations that are watching students in the 
classroom and universities.
    We have a problem that, particularly professors who are not 
tenured, who have to publish, if they are doing research on 
China, especially on Tibet or Xinjiang, they can't publish 
anything risky or they won't get a visa. And so there is a lot 
of self-censorship--the access to China, generally, not just 
the Tibet Autonomous Region, is harder. It's very hard for 
scholars, including people like me who have some background in 
policy, to get visas because the United Front Department is 
scrutinizing which institutions' university professors are 
safe.
    So we have a major problem in terms of reciprocity and in 
terms of influences here. But I do have faith in our higher 
education institutions. I do think that with the right focus, 
university presidents, faculties, are going to address this. 
They're going to have to.
    Cochairman Smith. Well, we are hoping our GAO report will 
expose what is good and bad and ugly about all of this.
    I would just point out after I worked on Chen Guangcheng's 
case--we had four hearings about him--he phoned in, you might 
recall. And what a great human rights defender he is, was 
there, and continues to be. I couldn't get a visa for eight 
years. And I only got one several months back because I was 
going to NYU Shanghai campus to give a speech. It would have 
been harder for them to deny that one in plain light than what 
they were doing before that.
    So if they can do that to a Member of Congress--we asked 
the administration to step in. They did, thankfully. The 
Speaker of the House, John Boehner, wrote a letter to the 
Ambassador and said, What are you doing? He's Chairman of our 
Human Rights Committee on the Foreign Affairs Committee and 
he's Cochair and Chair--depending on the year--of the China 
Commission. And yet, they denied it. And if they can do that--
with the visibility of a Member of Congress--how much easier is 
it to say, to an academic or anyone else, you do not get to 
come. So I think we really have to be far more aggressive in 
holding the Chinese to account.
    I know that the focus has been largely on how we mitigate 
the danger of North Korea and get China to finally play a role 
that is constructive rather than ambivalent or worse, but that 
cannot preclude a human rights focus because the victims are 
every day, and they are proliferating. They are getting far 
worse, particularly with these new laws on NGOs, as you pointed 
out, the tightening space and the new law on sinicization of 
religion which is even worse than what it has been.
    So thank you all. Unless you have any final comments before 
we conclude.
    Mr. Dorjee. Thank you very much for the opportunity. I was 
meaning to say this before, but somehow I got caught up in 
responding to the questions like a student. I really very much 
appreciate the Congressional-Executive Commission on China for 
all the great work you have done, especially the database you 
have on the prisoners of conscience. That is very helpful to 
us.
    The last thing I want to say is that all of us, the United 
States, private companies, especially China--probably the Dalai 
Lama would say this--we should look at situations from all 
angles and we will all become more open to international 
standards and do the right thing.
    Thank you very much.
    Cochairman Smith. Thank you.
    You know, I would just conclude with this too, as well.
    Even though I chair this commission, when it came up for a 
vote in the House, I voted no. You know why? For years a group 
of us wanted to say that most-favored-nation status had to have 
human rights linkage. You don't have an unfettered exchange of 
goods and services without first--no labor rights, for example, 
in China, all the other barbaric human rights abuses they are 
committing, including torture, which our distinguished witness 
spoke about earlier and endured.
    If you want to trade, trade with conditionality. Well, this 
commission was created as part of a reversal of what we thought 
was going to be an executive order with teeth by Bill Clinton, 
and it was patterned after the Helsinki Commission on Security 
Cooperation in Europe, of which I also serve as Chair and 
Cochair.
    So it's a great idea, but it was done with a piece of 
legislation to give a talking point to those who wanted to 
trade in an unfettered way with China without any kind of human 
rights conditionality, which I found to be appalling.
    We lost. We had the votes, frankly, to take away or limit 
MFN. I joined with Nancy Pelosi and David Bonior and others. I 
was the Republican lead. And Bill Clinton jumped in the gap and 
said, I'll do an executive order. He put all of these human 
rights conditionalties in the executive order, which we 
applauded, and then realized it was a ruse.
    Within one year, he took his executive order and ripped it 
in half. On a Friday afternoon when everyone was leaving and 
the Chinese took--that was May 1994--took the measure of our 
country and its commitment to human rights and said, they don't 
mean it. Profits trump human rights.
    We've been trying to reclaim that ground ever since. My 
hope is that this President will do it. He has done it on 
trafficking, and that was a good first step. But there is far 
more that he has to do. The special envoy is a no-brainer. He 
should name him immediately so that individual can start doing 
their good work.
    It's been years of catch-up, and we lost it in May of 1994 
when he delinked it. We had the votes in the House and Senate. 
It was totally bipartisan to either limit or take away 
conditions for real most-favored-nation status. Now it's 
permanent. We don't even do an annual review.
    So I say all of this because bad policy coming out of the 
United States Congress, but especially the executive branch, 
has disadvantaged religious and political prisoners and made 
life worse.
    I was so glad when you said earlier that the picture of the 
Dalai Lama and President Bush inspired hope and tears among 
people. That's an encouragement. It means that what happens 
here might have some impact on the ground in places like Lhasa. 
But we need to do far more.
    Again, working with Chairman Rubio, who is a tremendous 
chairman, we are doing our level best. And we are going to 
continue. Your insights today really help us to know how to 
proceed. So thank you so very much.
    The hearing is adjourned.
    [Whereupon, at 12:31 p.m., the hearing was adjourned.]


=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                 Prepared Statement of Dhondup Wangchen

                           february 14, 2018
    I am very grateful for this opportunity to testify before the 
Congressional-Executive Commission on China on my experiences in Tibet 
under the Chinese authorities.
    My name is Dhondup Wangchen. I was born on October 17, 1974 to a 
family of Tibetan farmers in Bayen which is in the province we call 
Amdo. In today's administrative divisions, Bayen is in Tsoshar 
prefecture, Qinghai province, People's Republic of China.
    I arrived in the USA on December 25, 2017 and it was the first time 
in many years that I felt safety and freedom. The reunion with my 
family in San Francisco was a wonderful moment that I had looked 
forward to in the past years, with a mixture of anxious joy and the 
hesitation a man feels who was hindered from being the husband he ought 
to be for his loving wife; a man who was not given the chance to stand 
by with fatherly advice to his children in a world full of challenges, 
and a man denied being the son needed for his aging parents, tormented 
by the thought that they wouldn't see each other again in their 
lifetime.
    I would like to take this opportunity to thank every individual and 
organization who has helped to bring me back to my loved ones and who 
supported me since I was arrested in March 2008.

Early Activism

    Growing up in the remote village of Khotse in Amdo, 2000 km east of 
Tibet's capital, Lhasa, I started the discovery of my people's history 
with little knowledge but with an insatiable and juvenile curiosity 
about what life had to offer me.
    Our family lived a simple life right on the edge of the Tibetan 
plateau, bordering the Chinese mainland. I was aware of repression in 
the past. I had lost members on both my mother's and my father's sides 
of the family as a result of China's atrocities towards Tibetans. 
However, it wasn't until I made my journey to Lhasa in the early 1990s 
as a young adult, that I saw first hand resistance to China's 
occupation and political symbols such as the Tibetan national flag. In 
1992 when I was 18, I witnessed monks from Ganden Monastery carry out a 
street protest in Lhasa; some nuns also protested. I saw armed police 
and military forces quell the protest in a heavy handed manner and 
detain the monks and nuns.
    It was also in 1992 that I decided to go to India to see His 
Holiness the Dalai Lama and receive some education. At that time, there 
were many Tibetans escaping to India. However, I only stayed a year and 
returned to Tibet in 1993 where I was involved in activism such as 
helping former political prisoners. I would like to acknowledge my 
cousin Jamyang Tsultrim who mentored me in my formative years and who 
is here at today's hearing.
    In 1996, my good friend, Ganden monk Jigme Gyatso--a true Tibetan 
hero--was arrested on charges related to the 1992 protest. Jamyang 
Tsultrim was also arrested and they both served prison sentences. I was 
working in Jamyang Tsultrim's restaurant in Lhasa, which the 
authorities threatened to close down as it was the centre of many of 
our activities.
    I spent many years involved in various forms of activism and was 
detained several times. The longest that I was held in detention for 
was for about 30 days in Lhasa in 2003, but I was never formally 
charged and was always released.
    Jamyang Tsultrim fled to exile in 2002, but we kept in close touch 
and continued to plan and carry out underground activities. We had 
started a project in 2001 to print and distribute books to Tibetans all 
over Tibet for free, books related to His Holiness the Dalai Lama's 
teachings, Tibetan politics, history and the Dalai Lama's Middle Way 
Policy. The books we printed were both in Tibetan and Chinese.
    By 2004, we were printing books in Xining and Lanzhou, sometimes 
printing as many as 10,000 copies at a time. Among those who joined me 
printing and distributing the books was a monk from Labrang Monastery, 
Jigme Gyatso (known as Golog Jigme), who I first came to know in 2006 
and who would become my helper when making the movie ``Leaving Fear 
Behind''. This was our first collaboration, but many people were 
involved whose names I can't reveal for safety reasons.

Making ``Leaving Fear Behind''

    As the 2008 Olympic Games were fast approaching and it was always 
being reported in state media, I told Jamyang Tsultrim that I wanted to 
do something that would have a big and long-term impact and that would 
reflect the true feelings and wishes of the Tibetan people. This was 
when we first started thinking about making a documentary film from 
inside Tibet that would later be known as ``Leaving Fear Behind.''
    I set to work finding collaborators and traveling all over Tibet to 
interview ordinary Tibetans. Thanks to our activism in the past, we had 
many contacts and trusted friends we could work with. We would record 
interviews in isolated places so as not to arouse suspicion and we were 
always careful to ask whether the interviewees wanted to have their 
face shown on camera or not. We carried with us DVDs of the ceremony 
which showed U.S. President George Bush awarding His Holiness the Dalai 
Lama the Congressional Gold Medal in October 2007--we showed this to 
many people who became very emotional upon seeing it.
    My helpers, including Golog Jigme, and I traveled for several 
months in the cold winter of 2007 recording interviews and sent our 
footage to Zurich in several batches via trusted friends. Interview 
after interview, village after village, we recorded a never-ending 
stream of untold stories of past atrocities, complaints against the 
current discrimination of Tibetans, their frustration and anger about 
the hypocrisy of the Olympic Games and finally their fervent wish to 
see the Dalai Lama back in Tibet. More people than we could manage 
lined up to tell their story and witness their unbroken will to fight 
for truth and the right to express their free will. Looking back, I 
wonder why we hadn't foreseen that their longing for freedom would 
explode a few months later, in the most forceful uprising Tibet had 
seen since 1959.
    Our final footage was taken in Xi'an on March 10, 2008 and handed 
over to a UK-born Tibetan who helped to ensure that it reached Zurich. 
We spent that day together unaware that protests had broken out in 
Lhasa the same day and would continue over the next days and months all 
over Tibet.

Detention

    Even though I was aware that I was being followed and was under 
surveillance, it wasn't until March 26, 2008 that I was arrested and 
interrogated by secret police. I was not kept in a police station or 
prison, but in a hotel and my family was not informed of my 
whereabouts. The torture started as soon as I was detained. I was 
forced to sit in the ``tiger chair.'' For seven days and eight nights I 
was given no food and was not allowed to fall asleep.
    On July 13, 2008, I was able to escape from this detention for 24 
hours only. In a phone call with Jamyang Tsultrim I learned that they 
had received all the footage and were in the process of finishing 
editing the film. It wasn't long before I was back in detention. 
``Leaving Fear Behind'' was released and distributed online just before 
the Olympic Games started in August 2008 by the non-profit Filming for 
Tibet, registered in Zurich. Even though I didn't know for sure, I was 
hopeful that everything had gone according to plan. I suspected that 
the authorities were building their case against me. I was often 
interrogated and told I had to denounce His Holiness the Dalai Lama and 
that if I admitted my wrongdoings I would be released. I always refused 
to do these things.
    I was shown ``Leaving Fear Behind'' while I was in detention in 
December 2008, a few months after it had been released. I will remember 
this moment forever. The interrogator wanted to know how I knew the 
people I had interviewed. And then he showed me the edited film and 
wanted me to confess. For the first time, I watched ``Leaving Fear 
Behind,'' in a Chinese prison! While the interrogator continued to 
force me to confess my wrongdoings, I just enjoyed in my inside the 
train scene, the music with the auspicious lyric and felt immensely 
proud.
    I thought that even if I received a 10-year sentence it would have 
been worth making the film. I felt happy for the interviewees who had 
taken great risks to appear in the film, and we had promised them that 
the film would be seen by the outside world and His Holiness would know 
about the film as well. So I was happy that I had been able to keep 
that promise to the interviewees.
    In July 2009, I received a visit from Li Dunyong, a Chinese human 
rights lawyer from Beijing who had been appointed by my sister to 
represent me. Another lawyer, Chang Boyang, also came to visit me later 
and I told them about the maltreatment of political prisoners and about 
how I had been placed in solitary confinement for 85 days. Even though 
according to law, I should have had access to a translator, none was 
made available and I had to communicate with the lawyers in Chinese 
even though it's not my first language and my Chinese isn't very good. 
A few days after I had spoken to the lawyers, outside authorities came 
to speak to me in prison and asked me many questions about the lawyers 
and why they wanted to represent me. The authorities had told the 
lawyers appointed by my family that they weren't allowed to defend me 
and they were pressured and threatened to have their licenses revoked. 
The authorities told me that I wasn't allowed to have my own lawyers 
and had to accept the lawyers that they had appointed. Even though I 
told them clearly that I didn't want their lawyers, in reality I had no 
choice. The authorities then lied to my sister and told her that I had 
refused all legal representation.

Sentencing and Imprisonment

    I remained in informal detention until I was tried and sentenced on 
December 28, 2009 to 6 years in prison for ``subversion of state 
power.'' The case against me mentioned the projects I had been involved 
with: printing and distributing books as well making ``Leaving Fear 
Behind.''
    During my time in various forms of detention, I had to do manual 
labor which differed depending on where I was. I had been made to do 
many different tasks such as peeling garlic or stitching military 
uniforms and was given only two meals a day, which were barely 
adequate. The day would start at around 6:30 a.m. and we had to work 
until 11 p.m., we never went outside and I was in constant pain with 
headaches and hurting arms. I always witnessed a difference in how 
prisoners and political prisoners were treated. When it came to Tibetan 
prisoners, we were never allowed to speak Tibetan to each other.
    On April 6, 2010, I was transferred to Xichuan prison, a labor camp 
which operates as an industrial manufacturer under the name of 
``Qinghai Xifa Water and Electricity Equipment Manufacture Installment 
Limited Liability Company.'' My physical condition declined here and I 
contracted hepatitis B. Even though doctors did visit prisoners 
regularly, apart from draining blood from me many times, I never 
received a diagnosis or any medical treatment. My family members sent 
me some medicines, but it was only after my release from prison in 2014 
that I received proper treatment and was able to spend 15 days in the 
hospital.
    While in prison, I wrote many letters to my sister and family 
members and the prison authorities took them, saying they would be sent 
on. After release, I discovered that none of the letters had arrived. 
In March 2012, it was discovered that I tried to smuggle a letter to 
the outside world. This letter was a long appeal to then Chinese 
President Hu Jintao and Premier Wen Jiabao, outlining the corrupt 
prison system and the discrimination that Tibetan prisoners suffer. I 
was punished by being placed in solitary confinement for 84 days.
    In August 2012, I was transferred from Xichuan labor camp to 
Qinghai Provincial Women's Prison, the main prison for women. 
Conditions there were an improvement on Xichuan.

Release

    I was released from prison on June 5, 2014 very early, at around 4 
a.m. Unexpectedly, I was suddenly taken somewhere--to what looked like 
another prison. I was worried as I thought I was being transferred to 
another prison and not being released. There were lots of police and 
authorities there from Labrang; they said they wanted to take me to 
Labrang, but I told them I wanted to go to Khotse. It all took a long 
time and I didn't get to my sister's home in Khotse until late 
afternoon that day.
    Following the release I was always monitored closely and the police 
would contact me on my phone constantly. I didn't feel free at all as I 
was not allowed to contact or meet my friends. Even those friends who 
were in touch with me or visited me would be harassed by authorities. I 
wanted to study and improve my Tibetan and I wanted to work, but in 
those three and a half years I couldn't do anything. Feeling frustrated 
and increasingly isolated, I decided that it would be better to escape 
from the PRC rather than stay there under those circumstances without 
any freedom.
    With the help of Jamyang Tsultrim, I made a plan to escape 
unnoticed from the authorities. It was a long and risky journey to 
safety, but it was worth it when I arrived in San Francisco on December 
25, 2017 and was reunited with my family.
    While in Tibet, I had some information that the outside world, 
including the United States Government, was concerned about my 
situation. The Swiss, Dutch and the German governments were also 
concerned about me. The attention from outside, from civil societies 
around the world, as well as from governments, definitely helped me. 
This was reflected for example in the way my prison inmates and the 
prison administration treated me. Though I suffered from being 
restricted in my communications with my relatives, to the extent that I 
was isolated from the outside world, I was less subject to arbitrary 
punishments and beatings.
    I feel your support for cases like me and Tibet in general could be 
of greater effect if we regularly recall the ground reality.
    1. There are thousands of Tibetans like me, actively involved in 
the struggle. Tibetans in Tibet are not victims but agents of change 
trying to explore and use every opportunity to fight for a better 
future. We need support and partnership from the outside world.
    2. Every attempt for more freedom or democracy is oppressed by 
China. It is against the nature of this regime to tolerate freedom and 
democracy, be it in China, in Tibet and ultimately in the rest of the 
world.
    I am very aware about the support the United States Congress and 
Administration has given to the Tibetan cause, His Holiness the Dalai 
Lama and the Tibetan people in the past. I know that there is the U.S. 
Special Coordinator for Tibetan Issues in the State Department, who I 
would have liked to meet. But I am told no one has been appointed to 
this position as yet. I am also informed about some important 
legislation on Tibet that was introduced in Congress, including the 
Reciprocal Access to Tibet Act.
    I am not a politician and my knowledge about the specifics of your 
legislative process is limited. My friends from International Campaign 
for Tibet in Washington explained the goal and some important details 
of their recommendations to Congress to me. I am happy to support these 
recommendations:
    <bullet>  Actions taken by the U.S. Congress on Tibet send a strong 
message to the people in Tibet. However, the systematic suppression of 
a free press and reporting from Tibet can only be fought with a 
systematic counterapproach. Therefore, Congress should pass the 
Reciprocal Access to Tibet Act of 2017;
    <bullet>   Pass the resolution expressing the sense of Congress 
that the treatment of the Tibetan people should be an important factor 
in the conduct of United States relations with the People's Republic of 
China.
    <bullet>   Ask the U.S. Administration to raise Tibet in 
appropriate international fora, including U.N. bodies;
    <bullet>   Urge China to release Tibetan political prisoners, 
including the 11th Panchen Lama, Gedhun Choekyi Nyima.
    My wish is that whatever measures you take, that you do it with the 
strongest possible conviction and in the most forceful and wise manner.
    As a Tibetan, who tried his best to give a voice to his fellow 
countrymen, I can assure you the Tibetans in Tibet have not given up.
    I would like to take this opportunity to thank you all sincerely.
    Thank you.
    Dhondup Wangchen
                                 ______
                                 

                  Prepared Statement of Tenzin Dorjee

                           february 14, 2018
    Thank you to the Co-Chairs of the Congressional-Executive 
Commission on China (CECC), Senator Marco Rubio (R-FL) and 
Representative Christopher Smith (R-NJ), for holding today's hearing, 
Tibet ``From all Angles.'' I am Tenzin Dorjee, a Commissioner on the 
U.S. Commission on International Religious Freedom (USCIRF). USCIRF is 
an independent, bipartisan U.S. Federal government commission created 
by the 1998 International Religious Freedom Act (IRFA). The Commission 
uses international standards to monitor the universal right of religion 
or belief abroad and makes policy recommendations to the Congress, 
President and Secretary of State.
    Today's hearing comes at a crucial time for the people of Tibet and 
Tibetan Buddhism. The plight of the following individuals helps 
underscore why:
    <bullet>  Gedhun Choekyi Nyima, the Panchen Lama, is one of the 
world's longest-held prisoners of conscience. Chinese government 
authorities kidnapped the then six-year-old boy and his family on May 
18, 1995. They have not been heard from since.
    <bullet>  Tashi Wangchuk, a Tibetan language advocate accused of 
separatism, faced a one-day sham trial in January 2018 and could be 
sentenced to up to 15 years in prison.
    <bullet>  Choekyi, a Tibetan monk, is in failing health as he 
serves a four-year sentence, imprisoned for celebrating the Dalai 
Lama's birthday.
    These three Tibetans are prisoners of conscience whom the Chinese 
government ruthlessly has detained. The appendix to my testimony lists 
many others.
    I am full of joy that Dhondup Wangchen is with us today. He managed 
to escape China where he was a prisoner of conscience. He had been 
imprisoned, experiencing both hard labor and solitary confinement, and 
then placed under police surveillance after his release more than three 
years ago. The Chinese government targeted him for making a 
documentary, ``Leaving Fear Behind.'' In this documentary, Tibetans 
told the truth about living under Chinese rule, their love for the 
Dalai Lama, and their view that the 2008 Beijing Olympics would not 
help improve their lives.
    However, I am deeply saddened that the only way he and his family 
can live in safety and freedom was for them to have escaped Tibet. This 
is the case because the Chinese government ruthlessly seeks total 
domination in Tibet. The government forces Tibetans to assimilate into 
the dominant Han culture, seeks to control Buddhism, and restricts the 
teaching of the Tibetan language. The government views any efforts to 
preserve the Tibetan religion, language, and culture (that would help 
ensure the continuation of the Tibetan people) as antithetical to this 
effort and the government's goal of advancing its so-called 
``sinicization'' of religion. Through this strategy, the government 
seeks to turn all aspects of faith into a socialist mold infused with 
``Chinese characteristics.'' This strategy reinforces the government's 
existing and pervasive policies that, over time, have turned Tibet into 
a police state. My fellow Commissioner, Father Thomas J. Reese, S.J., 
spoke about the plight of Tibetan Buddhists under Chinese government 
repression during his testimony before the Tom Lantos Human Rights 
Commission on February 6, 2018 on ``Preventing Mass Atrocities I.''
    I testify today as a proud Tibetan American and a refugee from 
Tibet, whom my parents smuggled out as an infant. Like tens of 
thousands of other Tibetans, we were forced to flee Tibet due to the 
Chinese Communist People's Liberation Army's brutal invasion of Tibet 
beginning in 1950 and the repression that has followed ever since.
    In my testimony, I make six points to highlight the violations the 
Chinese government has committed to repress religious freedom in Tibet 
and take over my homeland. I also make recommendations on what the U.S. 
government can do to address the Chinese government's violations of the 
Tibetan people's religious freedom and other human rights. I also 
highlight in my testimony cases of prisoners of conscience to shine a 
light on both their situations and the increasingly dire conditions of 
Tibetan Buddhists in China.

    1. The Chinese government implements countless oppressive 
restrictions in Tibet, which they justify as the means to counter the 
``three evil forces of separatism, extremism and terrorism.''

    In December 2016, Tibet's Communist Party Chief Wu Yingjie publicly 
stated that he expects the Party's control over religion in Tibet to 
increase. He has remained true to his word.
    The Chinese government implements restrictions in the Tibetan 
Autonomous Region, but also has tightened controls in Tibetan areas of 
other provinces. These restrictions include: reeducation campaigns; 
extensive surveillance, through for example, security forces and 
closed-circuit television; Internet and mobile phone monitoring; 
limiting travel both domestically and internationally; and the 
intrusive presence of the military and security forces. The government 
also quickly suppresses any perceived religious dissent, including 
through firing at unarmed people.
    While these policies are set at the highest levels in Beijing, Chen 
Quanguo perfected the surveillance state as a way to maintain stability 
when he was Tibet's Party Secretary. He developed a grid management 
system throughout Tibet that extended security operations to the 
grassroots level to fight the ``Dalai clique.'' (In early 2017, Chen 
Quanguo became the new leader in Xinjiang, where he is implementing an 
intensive securitization program that mirrors his efforts in Tibet.) 
His replacement in Tibet, Wu Yingjie, has been linked to previous 
crackdowns in Tibet, and has called for continued struggle against 
``the Dalai Lama clique.''
    These high-tech and other efforts followed the Chinese government's 
brutal crushing of protests between 1987 and 1989 and the 
implementation of additional restrictions after demonstrations that 
took place in 2008. On March 10, 2008, the anniversary of the failed 
1959 uprising, monks from Drepung monastery peacefully protested 
against the government's ``patriotic education'' programs and other 
restrictions on their freedom of religion or belief. Supportive 
demonstrations in Lhasa led to property destruction, arrests, and 
numerous deaths, with demonstrations spreading to Tibetan areas outside 
the Tibetan Autonomous Region. To this day, the Chinese government has 
not provided full details or a credible accounting of those detained, 
missing, or ``disappeared'' for their role or participation in the 
demonstrations. Those accused have not been given adequate legal 
representation and their trials, if held at all, were closed.

    2. The Chinese government views His Holiness the Dalai Lama as a 
threat to its control because officials recognize his central 
importance to the Tibetan people. Devotion to the Dalai Lama is a core 
tenet for many Tibetan Buddhists.

    The Dalai Lama, who fled Tibet in 1959, seeks to peacefully resolve 
the issue of Tibet and bring about stability and co-existence between 
the Tibetan and Chinese people through the ``Middle Way'' policy. This 
policy seeks to peacefully and nonviolently resolve Sino-Tibetan issues 
via mutual respect and dialogue for mutual benefit. Yet Chinese 
officials regularly and continually vilify him, viewing him as a threat 
to their power, even though political authority has belonged since 2011 
to the President of the Central Tibetan Administration in exile. They 
accuse the Dalai Lama of blasphemy and splittism and refer to him as a 
``wolf in monk's robes.''
    The Chinese government also cracks down on anyone suspected of so-
called separatist activities and for participating in the ``Dalai 
clique.'' Monks and nuns who refuse to denounce the Dalai Lama or do 
not pledge loyalty to Beijing have been expelled from their 
monasteries, imprisoned, and tortured. Despite these harsh measures, 
Tibetan Buddhists continue to revere the Dalai Lama as their spiritual 
leader and take great risks to find ways to express their devotion.
    Beijing continually seeks to diminish the Dalai Lama's 
international influence, issuing threats to other countries, including 
the United States. For instance, after the Dalai Lama delivered a 
commencement speech in June 2017 at the University of California, San 
Diego, the Chinese Communist Party-controlled ``Global Times'' 
condemned the university and its chancellor for inviting him to speak, 
saying he must ``bear the consequences,'' and threatened that visas 
would be withheld from the chancellor as would future exchanges with 
the university. I focus more on the long arm of China later in my 
testimony.
    Officially atheist, the Chinese government absurdly claims the 
power to select the next Dalai Lama, citing a law that grants the 
government authority over reincarnations. It is alarming to imagine a 
scenario in which there could be two Dalai Lamas, one named by China 
and the other recognized by Tibetans.
    However, the Chinese government does not have the authority to name 
the next Dalai Lama or other reincarnated religious leaders of Tibet. 
China cannot control the real reincarnation of the Dalai Lama. Such a 
decision is reserved to the current Dalai Lama, Tibetan Buddhist 
leaders, and the Tibetan people. The Dalai Lama has reiterated that it 
is for the Tibetan people to determine whether the institution of the 
Dalai Lama is still relevant or if he should be the last Dalai Lama. If 
there is another Dalai Lama, he has said that the next one will be born 
in freedom, not under Chinese control, and that each Dalai Lama has 
reincarnated to fulfill the unfinished works of his predecessor.
    While the Dalai Lama hopes to return to Tibet in his lifetime, the 
Chinese government is waiting for him to die outside of China, and 
views his death as key to resolving Sino-Tibetan issues. However, the 
consequences of the Dalai Lama passing away in exile will be 
unimaginable to Tibetans both inside and outside of Tibet. Given such 
uncertainty, it is conceivable that some Tibetans may resort to 
violence that could further undermine stability and security in the 
region, and others would be driven to self-immolate.

    3. The Chinese government imposes intrusive restrictions on public 
and private religious practice.

Since the 2008 demonstrations:
    <bullet>  Provincial authorities monitor the training, assembly, 
publications, selection, education, and speeches of Tibetan Buddhist 
religious leaders. Monks are directed to attend ``patriotic education'' 
sessions consisting of pro-government propaganda.
    <bullet>  Authorities prohibit children from participating in 
religious holidays, threatening them with expulsion from school if they 
fail to comply.
    <bullet>  The state controls the movement and education of monks 
and nuns, the building or repairing of religious venues, and the 
conducting of large-scale religious gatherings.
    <bullet>  Authorities have installed a heavy security presence at 
monasteries and nunneries, monitoring and surveilling in and around the 
properties.
    Rigorous study and practice are very important to Tibetan Buddhism. 
The Chinese government seeks to strike at the heart of Tibetan Buddhism 
by attacking the Tibetan religious and educational institute of Larung 
Gar, which is one of the largest Tibetan Buddhist institutes in the 
world and is located in Sichuan Province. The destruction and 
micromanagement at Larung Gar, as well as at Yachen Gar, exemplifies 
Beijing's two goals: eviscerating the teachings and study of Tibetan 
Buddhism that are integral to the practice and traditions of the faith; 
and reshaping them to adapt Tibetan Buddhism to socialist society and 
serve the goals of the Chinese Communist Party and Chinese government.
    Larung Gar was home to more than 10,000 monks, nuns, laypeople, and 
students of Buddhism from all over the world. While cadres since 
October 2011 have been stationed in all monasteries in the Tibet 
Autonomous Region, west of Larung Gar, and have taken over the 
management committee of each monastery, the government's actions in 
Larung Gar are unprecedented in scope.
    In July 2016, the government launched a sweeping operation, 
demolishing significant parts of this institute, with local officials 
referring to the project as ``construction'' or ``renovation.'' 
Thousands of monastics, laypeople, and students were evicted. Some 
reportedly were locked out of their homes before they could collect 
their belongings, or were forced to sign pledges promising never to 
return. Many others were forced to undergo so-called ``patriotic 
reeducation programs'' and have been prohibited from returning.
    The demolition order also included language governing ideology and 
future religious activities at Larung Gar and gave government 
officials--who are largely Han Chinese, not Tibetan--greater control 
and oversight of the institute, including direct control over 
laypeople. The order also mandated the separation of the monastery from 
the institute, running counter to the Tibetan tradition of one blended 
encampment with both religious and lay education.
    According to reports from Human Rights Watch, in January 2018, 200 
Communist Party cadres and lay officials reportedly took over the 
management, finances, security, admissions, and choice of textbooks at 
Larung Gar. The individuals in charge of this pervasive new management 
system will limit the number allowed to stay there; establish a ``grid 
management'' system; subject residents and visitors to ``real-name 
registration''; and require monks to have red tags, nuns yellow tags, 
and lay devotees green tags for identification. According to an 
official document Human Rights Watch reviewed, 40 percent of teaching 
at Larung Gar reportedly now must consist of classes in politics and 
other non-religious subjects; a criterion for accepting students will 
be their support for ``Chinese culture, the Chinese Communist Party, 
and socialism with ``Chinese characteristics;'' the goal of study will 
include to ``honor and support the Chinese Communist Party and the 
socialist system'' and train monks who ``defend the unification of the 
Motherland, uphold national unity and patriotic religion and abide by 
their vows.'' In addition, monks and nuns who are from areas other than 
Sichuan Province will be prohibited from applying to Larung Gar.
    Also located in Sichuan Province, Yachen Gar had a population of 
about 10,000 people, mostly nuns, before expulsions began in April 
2016. By September 2016, about 1,000 nuns had been expelled, and 200 
dwellings had been demolished. In August 2017, authorities issued 
instructions to remove 3,500 homes belonging to monks and nuns to allow 
for the construction of a series of roads within Yachen Gar. Monks and 
nuns were ordered to register their identity cards and sign and give 
thumb prints to a document to certify how long they had lived at Yachen 
Gar. The document committed residents to returning to their native 
regions of Tibet, never returning to Yachen Gar after leaving, and 
advised not to express any disagreement with these actions.
    Family members of nuns reportedly were threatened with punishment 
if the nuns did not return to their place of household registration. 
2,000 more nuns and monks reportedly were ordered expelled, along with 
the demolition of 2,000 more dwellings, by the end of 2017.

    4. Detaining religious prisoners of conscience is a tool the 
Chinese government uses to control Tibetan Buddhists.

    The Chinese government detains, subjects to sham trials, imprisons 
and tortures religious prisoners of conscience. Please see the appendix 
for a selected list of Tibetan religious prisoners of conscience 
extracted from the Congressional-Executive Commission on China's list 
of prisoners of conscience.
    I here focus on several prisoners, beginning with the Panchen Lama, 
who holds the second highest position in Tibetan Buddhism; and Tashi 
Wangchuk, an advocate for the Tibetan language, which is integral to 
the practice of Tibetan Buddhism. While one is a religious leader and 
the other is a lay activist, the Chinese government has disappeared one 
and unjustly detained the other. I also will highlight the case of 
Choekyi, a Tibetan monk imprisoned for his devotion to the Dalai Lama.
    The Chinese government fears Tashi Wangchuk as much as it does the 
Panchen Lama, who holds the second highest position in Tibetan 
Buddhism. The Chinese government seeks to silence Tashi Wangchuk 
because it believes that Tibetan language acquisition would impede the 
sinicization of the education system and Tibetan assimilation into the 
majority Han culture.
    The Chinese government seeks to systematically destroy the Tibetan 
language to help facilitate the assimilation into the dominant ethnic 
Han culture of Tibetans, who already face pressure from economic 
changes and a Chinese government fearful of ethnic and religious 
separatism.
    The Panchen Lama: Gedhun Choekyi Nyima is now one of the world's 
longest-held prisoners of conscience. After the death of the 10th 
Panchen Lama, His Holiness the Dalai Lama chose Gedhun on May 15, 1995 
to be the 11th Panchen Lama, the second highest position in Tibetan 
Buddhism. Three days after his selection, Chinese government 
authorities kidnapped then six-year-old Gedhun and his family. On 
November 11, 1995, Chinese authorities announced their own pick to 
serve as the Panchen Lama: Gyancain Norbu. Most Tibetan Buddhists 
reject the government's selection.
    In the more than 20 years since his abduction, Chinese authorities 
have provided little information about his whereabouts, alleging that 
they need to protect him from being ``kidnapped by separatists.'' In 
May 2007, Asma Jahangir, then-Special Rapporteur on freedom of religion 
or belief of the UN Human Rights Council, asked Chinese authorities 
what measures they had taken to implement the recommendation of the 
Committee on the Rights of the Child and suggested that the government 
allow an independent expert to visit and confirm Gedhun's well-being. 
On July 17, 2007, the Chinese authorities said that he is a ``perfectly 
ordinary Tibetan boy'' attending school and leading a normal life, and 
that he ``does not wish to be disturbed.'' Authorities say that the 
state employs both parents and that his brothers and sisters are either 
working or at university. They must provide videographic evidence for 
these claims.
    The Chinese government, while officially atheist, believes it has 
the authority to replace the Panchen Lama with its own selection, as it 
does the Dalai Lama. In 2016, the government published online a list of 
870 ``authentic living Buddhas.'' However, the Chinese government does 
not have the authority to name any of the reincarnated religious 
leaders of Tibet.
    As part of USCIRF's Religious Prisoner of Conscience Project, I 
have chosen to work on behalf of the Panchen Lama, highlighting his 
case and the laws and policies of the Chinese government that led to 
his disappearance.
    Tashi Wangchuk: Tashi Wangchuk is a Tibetan entrepreneur and 
education advocate known for promoting a deeper understanding of the 
Tibetan language as integral to the practice of Tibetan Buddhism. He 
was detained on January 27, 2016 after speaking to the ``New York 
Times'' for a documentary video and two articles on Tibetan education 
and culture. His relatives did not know he was detained until March 24, 
despite a Chinese law requiring notification within 24 hours. He was 
indicted in January 2017 for ``inciting separatism,'' and went on trial 
on January 4, 2018. The trial closed without a verdict being announced. 
He could face up to 15 years in prison if found guilty.
    Tashi Wangchuk called on Tibetans to protect their culture and 
focused on the need for bilingual education and Tibetan language 
instruction across the Tibetan regions of China. According to the Dalai 
Lama, Tibetan language preservation is crucially important because the 
complete teachings of Buddha, especially philosophy, science of mind 
and emotions, and metaphysics, are best preserved in the Tibetan 
language.
    Monasteries, the heart of Tibetan society, had served as vital 
educational institutions, with monks and nuns among the elite few who 
could read and write before Tibet came under Chinese Communist rule. 
Until recently, many monasteries held classes on the written language 
for ordinary people, and monks often gave lessons while traveling. 
However, Chinese officials in many areas ordered monasteries to end 
these classes, although Tibetan can still be taught to young monks.
    The estimated literacy rate in Tibet among Tibetans in China 
currently has fallen well below 20 percent, and continues to decline, 
as the Chinese government actively discourages its teaching, and does 
not use the Tibetan language in government offices, thereby violating, 
according to Tashi Wangchuk, the Chinese constitution. In 2012, 
officials largely eliminated Tibetan as a language of instruction in 
primary and secondary schools and ordered the use of Chinese instead. 
Many Tibetan teachers were laid off, and new Chinese textbooks were 
introduced that did not include detailed information on Tibetan history 
or culture.
    Choekyi, a Tibetan monk, is another prisoner of conscience, 
punished because of his expressed fidelity to the Dalai Lama; Chinese 
authorities since 2008 have punished displays of loyalty to the Dalai 
Lama. Choekyi was arrested in 2015 and sentenced to four years in 
prison in Sichuan for conducting ``separatist activities'' and wearing 
a shirt with Tibetan text that called for celebrating the Dalai Lama's 
80th birthday. His health has deteriorated in prison where he 
reportedly is in critical condition after he was tortured and forced to 
perform hard labor, although he was in poor health prior to entering 
prison, suffering from kidney problems, jaundice and other conditions. 
Family members have very limited visitation privileges and are not 
allowed to bring him food or medicine.
    The European Parliament on January 18, 2018 passed a resolution in 
support of human rights activists in China, including Tashi Wangchuk 
and Choekyi. The resolution calls for their immediate and unconditional 
release; expresses its deep concern ``at the arrest and continued 
detention of Tashi Wangchuk, as well as his limited right to counsel, 
the lack of evidence against him and the irregularities in the criminal 
investigation''; and urges the Chinese government to allow Choekyi's 
``relatives and the lawyers of his choice to visit him and, in 
particular, to provide him with adequate medical care.''
    I here highlight two other Tibetan religious prisoners of 
conscience who did not survive their brutal imprisonment:
    <bullet>  Goshul Lobsang: In 2008, authorities arrested Goshul 
Lobsang for his role in organizing a protest against the government. 
While in prison, he was subjected to extreme malnourishment and brutal 
torture, including regular injections and repeated stabbings. In March 
2014, following his release, Lobsang died due to his horrendous 
mistreatment.
    <bullet>  Tenzin Delek Rinpoche: Chinese authorities arrested 
Tenzin Delek Rinpoche, a prominent Tibetan religious leader, in April 
2002, accusing him of being involved in a 2002 bomb attack, and 
charging him with separatism and terrorism. He initially was given a 
death sentence, contingent on good behavior, with a two-year reprieve. 
His sentence was commuted to life imprisonment, and then subsequently 
to 20 years in prison. However, before his death in prison in 2015, he 
described to family members the torture he had endured, including 
repeated beatings. The government had denied his family's request that 
he be granted medical parole, instead arresting those who advocated 
justice for him.
          After his death in prison, Tenzin Delek's family requested to 
        see his body and that it be returned to them for proper 
        Buddhist burial rites. But Chinese authorities cruelly cremated 
        the body and refused to hand over his ashes, leading many to be 
        suspicious about the cause of his death. Even in death, the 
        Chinese government continued to defame Tenzin Delek, calling 
        him a criminal and a fake religious leader, and authorities 
        banned public memorials in honor of his passing. Authorities 
        subsequently detained his sister and niece for nearly two weeks 
        after they requested that his body be turned over to them. In 
        2016, Tenzin Delek's niece, Nyima Lhamo, fled China to seek 
        justice.

    5. At least 152 Tibetans have self-immolated since February 2009:

    According to the International Campaign for Tibet, 124 are men and 
28 are women; 121 are known to have died following their protest; 26 
are 18 or under; 13 were monks at Kirti Monastery in Ngaba; 11 were 
former monks there; and two were nuns from Mame Dechen Chokorling 
nunnery in Ngaba. Many of these protestors supported the Dalai Lama and 
freedom for Tibet.
    Chinese authorities in Tibet seek to prevent the dissemination, 
especially outside of Tibet, of information about self-immolations. 
Instead of acknowledging its role in prompting self-immolation, the 
government threatens family members with collective punishment, detains 
those suspected of sharing information, and harshly sentences and 
tortures those suspected of being involved. Because of these brutal 
measures, self-immolations recently have become less frequent.
    The Chinese government would have the world believe that self-
immolators commit ``terrorist acts in disguise,'' and/or were 
manipulated by external cults for their political ends. In fact, the 
government views self-immolations as threats to stability and security. 
The government's response, more repression and more controls, has led 
to more antipathy from the people and more self-immolations. Why have 
these people chosen to self-immolate? The Dalai Lama describes them as 
``desperate acts by people seeking justice and freedom.'' Others view 
self-immolation as one of the few available forms of protest given the 
almost complete securitization in Tibetan areas and the resulting 
difficulty of collective acts of resistance. Even small peaceful acts 
of defiance, such as having a picture of the Dalai Lama, can bring 
detention and disappearance.
    According to the International Campaign for Tibet, protestors who 
self-immolated in 2017 include:
    <bullet>  Konpe, a young Tibetan man of about 30, set fire to 
himself on December 23, 2017. He died in Ngaba close to the site of the 
first self-immolation in Tibet eight years ago. The police immediately 
took him away, and he reportedly died the next day.
    <bullet>  Tenga, a popular Tibetan monk in his sixties, self-
immolated on November 26, 2017 in Kardze, in the eastern Tibetan area 
of Kham. He had worked as a volunteer teacher. He reportedly called for 
freedom for Tibet as he was burning. Armed police reportedly arrived 
quickly and took away his body. Some sources reported that there was an 
immediate area lockdown, with internet communications blocked.
    <bullet>  A young Tibetan monk, Jamyang Losel, set himself on fire 
on May 19, 2017, in Malho Tibetan Autonomous Prefecture in Qinghai. He 
was immediately taken to a hospital in Xining, the provincial capital, 
but died there the same day. According to social media reports, his 
body was not returned to his family.
    <bullet>  A Tibetan teenager, Chagdor Kyab, reportedly self-
immolated on May 2, 2017 in Bora in Gansu, the Tibetan area of Amdo. 
His whereabouts are unknown, as is whether he still is alive. After 
setting himself on fire near Bora monastery, this 16-year-old protester 
reportedly shouted, ``Tibet wants freedom'' and ``Let His Holiness the 
Dalai Lama come back to Tibet'' while he burned.

    6. The Long Arm of China:

    The Chinese government attempts to control the discussion of 
sensitive topics and censor information and criticism about its actions 
in Tibet. The government also seeks to intimidate critics of its 
repressive policies. These pervasive efforts are not confined to the 
geographic limits of Tibet or China. Rather, the Chinese government 
aggressively seeks to shape public opinion, controlling the narrative 
worldwide, including in the United States, through intimidation, 
pressure, harassment, and fear, in its quest to create a positive view 
of China. For example, the Chinese government in 2017 issued stern 
warnings to countries like Botswana and India about the Dalai Lama's 
planned appearances; in the former case, the Dalai Lama ultimately 
canceled the trip due to exhaustion, and in the latter, his visit to 
disputed border areas of Arunachal Pradesh state underscored regional 
tensions.
    China's long arm and heavy hand are especially evident in Nepal 
where about 20,000 Tibetans reside. Leader Nancy Pelosi (D-CA) and a 
Congressional delegation visited Tibetans in Nepal last summer. Under 
pressure from the Chinese government, the Nepalese government has 
canceled or limited many Tibetan gatherings, including those 
commemorating the Dalai Lama's birthday, and forcibly returned some 
Tibetans to China. The Nepalese government has installed heightened 
security measures on the border to limit the historical migration of 
Tibetans into Nepal. Tibetans living in Nepal also face limitations on 
getting refugee certificates, drivers licenses, employment, and exit 
visas to leave Nepal. Many of them live in former detention camps and 
without documentation, cannot go to school, and have difficulty finding 
work. Monks reportedly are prohibited from publicly criticizing China, 
participating in Tibetan independence activities, displaying the Dalai 
Lama's picture, or celebrating his birthday. Chinese secret police 
reportedly organize patrols in Nepal. The country's foreign Minister, 
Mahendra Bahadur Pandey, assured Chinese officials on an official visit 
that Nepal would ``never allow any forces to use Nepali territory to 
engage in anti-China activity.''
    China's long arm and heavy hand pose serious concerns for 
democratic norms and institutions in the United States. I earlier cited 
the Chinese government's pressure on the University of California, San 
Diego, for inviting the Dalai Lama to deliver the commencement address.
    Other examples of the Chinese government's aggressive efforts at 
U.S. educational institutions include:
    <bullet>  International Students: A minority of Chinese students in 
the United States have worked closely with the Chinese government, 
through the Chinese Students and Scholars Association (CSSA), to 
further its agenda of control by promoting a pro-China agenda and 
seeking to limit anti-Chinese speech on Western campuses. Some have 
characterized the group as a ``tool of the government's foreign 
ministry.'' This group helped lead the opposition to the Dalai Lama's 
speech at the University of California. A May 2017 New York Times 
article noted how the group at Duke University was accused of inciting 
a harassment campaign in 2008 against a Chinese student who tried to 
mediate between sides in a Tibet protest; and that in rare instances 
members of the group have been accused of spying.
          I personally have experienced and witnessed the Chinese 
        government's use of CSSA to promote a pro-China agenda. In 
        2008, when I was a doctoral student at the University of 
        California, Santa Barbara (UCSB), over a hundred international 
        Chinese students tried to disrupt a peaceful event about Tibet 
        that the Santa Barbara Friends of Tibet had organized. They 
        carried huge Chinese flags and posters picturing the feudal 
        system of old Tibet, probably given to them by the Chinese 
        Consulate in Los Angeles, and shouted denunciations of His 
        Holiness the Dalai Lama. I was standing alone with a Tibetan 
        flag at one corner when about thirty Chinese students encircled 
        me. They screamed at me and hurled epithets at me, calling me a 
        ``terrorist'' and ``bastard.'' I stood my ground nonviolently 
        and tried to engage them in dialogue and challenged their 
        verbal attacks and biased views on Tibet and His Holiness. 
        Another Tibetan student, Tenzin Sherab, had a similar 
        experience. About thirty Chinese students also encircled and 
        screamed at Dr. Jose Cabezon, the Dalai Lama Chair in the 
        Department of Religion at UCSB.
    <bullet>  Confucius Institutes: There are 110 Confucius Institutes 
(largely in colleges and universities) and 501 Confucius Classrooms (in 
primary and secondary schools) in the United States. Their mandate is 
to promote cultural exchange through instruction in the Chinese 
language and culture. A Chinese state organ (Hanban) selects the 
teachers and materials, thereby allowing them to promote the ideology 
and policy goals of the Chinese government. Critics have raised 
concerns that this arrangement helps Beijing soften its authoritarian 
image and that cooperating universities and classrooms unwittingly help 
the Chinese government promote censorship abroad, while undermining 
human rights and academic freedom by helping to shape public opinion on 
key political and human rights issues such as Tibet. The National 
Association of Scholars issued a report in April 2017 noting reasons 
for concern, with universities making ``improper concessions that 
jeopardize academic freedom and institutional autonomy.''
                            recommendations
    As I end my testimony with some recommendations, I would like to 
acknowledge the coming Losar Festival in honor of the Tibetan New Year, 
which begins this Friday, February 16. The start of every new year 
offers us the opportunity to reflect and, with respect to Tibet, 
consider how U.S. policy can help advance freedom of religion and 
belief and related human rights for the Tibetan people and others 
throughout China. USCIRF repeatedly has recommended that China be 
designated a ``country of particular concern'' (CPC) for its 
``systematic, ongoing, egregious'' violations of the freedom of 
religion or belief, with specific sanctions associated with the 
designation. Chief among these violations is the Chinese government's 
treatment of Tibetan Buddhists. USCIRF also recommends the following:

    Congress should:
    <bullet>  Cosponsor and approve the Reciprocal Access to Tibet Act 
of 2017 (H.R. 1872/S. 821). sponsored in the House by Representatives 
James McGovern (D-MA) and Randy Hultgren (R 09IL) and in the Senate by 
Senators Marco Rubio (R-FL) and Tammy Baldwin (D-WI).
          This bill would deny entry into the United States to Chinese 
        government officials responsible for creating or administering 
        restrictions on U.S. government officials, journalists, 
        independent observers, and tourists seeking to travel to 
        Tibetan areas. It is unacceptable that the Chinese enjoy broad 
        access to the United States while U.S. citizens' access to 
        Tibet is highly restricted. Mutual access and reciprocity is 
        key to maintaining a viable relationship between the United 
        States and China.
    <bullet>  Send regular Congressional delegations focused on 
religious freedom and related human rights to China and request to 
visit Tibet, and advocate on behalf of individual prisoners of 
conscience and persons whom the Chinese government has detained or 
disappeared, as well as their family members.
    <bullet>  Appropriate funds for programs supporting the Tibetan 
people, including Tibetan language broadcasts, to preserve their 
distinctive language, religion and culture in accordance with the 
Tibetan Policy Act of 2002.
    <bullet>  Adopt and advocate on behalf of Tibetan prisoners of 
conscience to draw attention to their cases, their ill treatment, and 
their families and loved ones.
    The U.S. government should:
    <bullet>  Appoint a qualified and experienced individual to serve 
as the Special Coordinator for Tibetan Issues at the U.S. Department of 
State, as mandated by the Tibetan Policy Act of 2002.
    <bullet>  Use targeted tools against specific officials and 
agencies identified as having participated in or being responsible for 
human rights abuses, including particularly severe violations of 
religious freedom; these tools include the ``specially designated 
nationals'' list maintained by the U.S. Department of the Treasury's 
Office of Foreign Assets Control, visa denials under section 604(a) of 
IRFA and the Global Magnitsky Human Rights Accountability Act, and 
asset freezes under the Global Magnitsky Act.
    <bullet>  Urge the Chinese government to provide videographic 
evidence of the well-being of the Panchen Lama.
    <bullet>  Press the Chinese government to restart the dialogue 
leading to a negotiated agreement on Tibet and allow the Dalai Lama to 
return to Tibet for a visit if he so desires.
    <bullet>  Press for at the highest levels and work to secure the 
unconditional release of prisoners of conscience and religious freedom 
advocates, and press the Chinese government to treat prisoners humanely 
and allow them access to family, human rights monitors, lawyers, and 
adequate medical care from independent health care professionals, and 
the ability to practice their faith.
    <bullet>  Press the Chinese government to abide by its commitments 
under the Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment, and also independently investigate 
reports of torture among individuals detained or imprisoned.

           APPENDIX--Tibetan Buddhist Prisoners of Conscience

    * This selected list of 475 prisoners of conscience, compiled on 
February 8, 2018, is from the Congressional-Executive Commission on 
China's database.
    The list of prisoners detained since March 2008 includes prisoners 
who currently are (1) detained or imprisoned, (2) detained and serving 
a life sentence, (3) detained and presumed to be serving a life 
sentence, (4) presumed to be imprisoned or detained, (5) presumed 
detained and serving a life sentence, and (6) presumed detained and 
presumed serving a life sentence.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 

                 Prepared Statement of Michael J. Green

                           february 14, 2018
            tibet, geopolitics, and u.s. national interests
    I welcome the opportunity to appear before the Commission to 
address the geopolitical context of U.S. policy on Tibet. Those who 
argue that U.S. ``policy'' should somehow be distinguished from our 
``values'' as a nation display a fundamental misunderstanding of our 
national interests and our own history. As I argued in a recent book on 
U.S. strategy since the birth of our Republic, American statecraft has 
successfully prevented the rise of hostile hegemonic powers in Asia not 
by force of arms or realpolitik alone, but also by investing in 
democratic norms and open societies. In Tibet, as in many other parts 
of Asia today, our consistent support for those same universal norms 
will have an important impact on whether China uses its growing power 
for coercion and hegemonic control, or finds ways to contribute to 
regional prosperity consistent with the needs and expectations of her 
people and her neighbors.
    The powerful aspirations of the Tibetan people for dignity, 
religious freedom, and cultural autonomy intersect with rising 
geopolitical tensions along the Himalayan plateau. China's insecurity 
about this region is deeply rooted. Britain intrigued against Russia in 
Tibet as part of the ``Great Game'' at the turn of the 20th century. 
Some historians argue that the iconic Tibetan flag was inspired by 
Japanese spies fomenting anti-Chinese nationalism and offering Japan's 
own ``rising sun'' flag as a model. The first CIA agent killed in the 
line of duty died smuggling guns and money to Tibet. In 2008 China's 
Central Military Commission ranked Tibet as the most critical 
sovereignty challenge, ahead of Xinjiang and Taiwan.
    The flipside of insecurity is expansionism and Beijing has made 
dramatic moves to assert strategic dominance over the Himalayan plateau 
at the expense of rival India. India and China have 37% of the world's 
population but only 10% of the world's water supply, with India and 
much of the rest of South and Southeast Asia relying on the Brahmaputra 
and other rivers flowing from the Himalayas. Beijing has already 
completed two of three water transfer programs diverting billions of 
cubic meters of river waters yearly into China. The highly 
controversial third leg of that plan is designed to divert waters from 
the Tibetan plateau into China. Beijing suspended agreements on 
hydrological information sharing with India in 2017 and has refused 
international demands for transparency on plans for damming rivers in 
and around the Tibet Autonomous Region.
    Beijing has also made moves to establish military dominance in 
areas contested with India--paralleling similar moves to militarize 
artificial islands in the South China Sea, but in this case at an 
altitude of over 10,000 feet. Satellite photos have revealed PLA 
militarization of Doklam, with new helipads, roads, and hardened 
fortifications only dozens of meters from the Indian Army's forward 
outpost. When India tested a ballistic missile capable of hitting 
China's coastal cities in January (a capability China already has 
against India), the official Chinese media called for the PLA navy to 
expand into the Indian Ocean to outflank Indian forces. The Tibetans' 
struggle is thus occurring at the epicenter of China's aggressive 
attempt to consolidate and expand control of its periphery within the 
Eurasian continent.
    Finally, the Tibetan people's aspirations are colliding with the 
greatest vulnerability of the Chinese Communist Party--that party's 
inability to accommodate the growing and legitimate spiritual and 
social demands of all its 1.4 billion citizens. This includes the most 
senior figures in the Communist Party. We know, for example, that Li 
Peng, the premier who ordered the crackdown in Tiananmen Square, 
converted to Tibetan Buddhism in his old age. As His Holiness the Dalai 
Lama put it in an address at CSIS in 2007, ``when you're 80 years old, 
socialism with Chinese characteristics is not so useful!''
    Driven by these insecurities, Beijing has chosen to turn away from 
dialogue with His Holiness on legitimate questions of religious and 
cultural autonomy and instead to try to break the will of the Tibetan 
people through a combination of repression, Hanization of the Tibet 
Autonomous Region, massive economic infrastructure investment, and 
political control of the succession to the 15th Dalai Lama.
    Steady U.S. support for the Tibetan people is therefore both 
morally and strategically imperative. U.S. support is necessary to 
demonstrate that we will not turn a blind eye to coercion by China in 
any one part of Asia in order to win China's support in another. 
Because if it is Tibet today, it could be Taiwan tomorrow, or even 
Japan. U.S. support is also necessary to demonstrate to the Tibetan 
people that His Holiness was right to champion the ``Middle Way'' of 
dialogue with Beijing within the context of China's own constitution 
and that those brave and long-suffering people do not have to choose 
either surrender or violent revolution. In addition, U.S. support is 
necessary to reinforce solidarity behind Tibet in the broader 
democratic world, which faltered in 2009--particularly in Europe--when 
President Obama chose not to meet His Holiness in Washington. And, 
finally, U.S. support is necessary because China's closing of Tibet to 
the outside world is exacerbating geopolitical tensions with India that 
will have ramifications for Asian stability writ large.
    The Trump administration has not fully stepped up to this reality. 
The administration's announcement of a ``Free and Open Indo-Pacific'' 
strategy certainly points to the right framing of how to incorporate 
our values in regional policies. However, this is the first President 
in two decades who has chosen not to raise Tibet in meetings with his 
Chinese counterparts, at least as far as we know. Finally, the United 
States still does not have a Tibet Coordinator as required under 
legislation. I understand that Secretary Tillerson responded to Senator 
Corker's letter on this subject by explaining that the Under Secretary 
for Civilian Security, Democracy, and Human Rights would be double-
hatted to fulfill the role as coordinator, but no one has been 
nominated for that post and a search on the Under Secretary's home page 
for ``Tibet'' produces multiple hits noting that Tibet is part of China 
and a few references to the last human rights report, but little else.
    The administration should also support the Reciprocal Access to 
Tibet Act of 2017. CSIS hosted some of the party officials from the TAR 
to discuss the situation in Tibet in 2008 and I found it useful. If 
necessary, a Presidential waiver can be used to accommodate officials 
interested in genuine dialogue on Tibet in the future, but the 
legislation is necessary to help blunt Beijing's effort to close off 
Lhasa and the surrounding region to outside journalists, scholars, 
officials and tourists. Reciprocity of access is a fundamental 
principle of stable international relations.
    I would conclude by emphasizing that U.S. policy has been aimed at 
achieving what Beijing itself has claimed to support in its own 
constitution and in prior dialogues with representatives of His 
Holiness--respect for the cultural, religious, and social rights of the 
Tibetan people. To retreat from that now would be to signal acceptance 
of the logic that Chinese power must be accommodated, even when that 
power is used to reverse rules, norms, and understandings that have 
contributed to peace, prosperity and U.S. interests in the Indo-Pacific 
for many decades.
    Thank you.
    Michael J. Green
                               __________

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator from Florida; 
         Chairman, Congressional-Executive Commission on China

                           february 14, 2018
    Good morning.
    This is a hearing of the Congressional-Executive Commission on 
China. The title of this hearing is ``Tibet `From All Angles': 
Protecting Human Rights, Defending Strategic Access, and Challenging 
China's Export of Censorship Globally.''
    We will have one panel testifying today. The panel will feature:
    Dhondup Wangchen: Tibetan filmmaker and recently escaped political 
prisoner;
    Dr. Tenzin Dorjee: Commissioner, U.S. Commission on International 
Religious Freedom (USCIRF) and Associate Professor, California State 
University, Fullerton;
    Dr. Michael J. Green, Senior Vice President for Asia and Japan 
Chair, Center for Strategic and International Studies (CSIS).
    Thank you all for being here.
    Without question, Tibet remains one of the most sensitive issues in 
U.S.-China relations. Conflict between Tibetan aspirations and Chinese 
policy is found within cultural, religious, and educational spheres. As 
the Chinese government seeks to diminish or altogether eliminate 
aspects of Tibetan culture that it regards as threatening, the peaceful 
exercise of internationally recognized human rights is systematically 
suppressed.
    Inside the Tibet Autonomous Region (TAR) and Tibetan autonomous 
areas, Chinese officials have increased restrictions on the religious 
and cultural life of Tibetans over the past decade by implementing 
pervasive controls and restriction on religious practice, a trend which 
was highlighted in the Commission's most recent Annual Report.
    Beginning in 2016, Chinese authorities targeted renowned centers of 
Buddhist learning for demolition and reportedly expelled more than 
4,800 Tibetan Buddhist monks and nuns and subjected them to periods of 
``patriotic education'' lasting from several weeks to six months.
    There are more than 500 cases of Tibetan political or religious 
prisoners currently in detention who are in the CECC's Political 
Prisoner Database--a staggering figure that is far from exhaustive.
    Access to Tibet for foreign journalists, NGOs and diplomats remains 
severely restricted.
    At the same time, the Chinese government exports its 
authoritarianism abroad, pressuring foreign academic institutions who 
invite the Dalai Lama to speak on campus as well as businesses who 
mention his name or the Tibet Autonomous Region as a distinct region.
    It is this dimension of global Chinese censorship which has thrust 
Tibet into the news in recent days. Every week it seems another major 
international company is publicly, and in some cases shamelessly, 
apologizing to the PRC for some sort of misstep related to Tibet, the 
Dalai Lama or some otherwise ``sensitive'' issue. Driven by their 
bottom line and China's vast market, many companies are increasingly 
prepared to toe Beijing's line.
    There is a certain grim irony to the Chinese government demanding 
that businesses apologize for social media posts on social media 
platforms that are blocked inside China.
    It is clear that the cost of doing business in China keeps getting 
steeper. At the same time, there is little price to be paid in the West 
when companies engage in self-censorship to further their bottom line 
despite the fact that it is antithetical to the values that underpin 
our own society.
    We will explore all of these topics during today's hearing in 
addition to the future of the Dalai Lama's succession, China's efforts 
to control water resources and expand its military presence on the 
Tibetan plateau, and the impact on broader U.S. strategic interests and 
human rights.
    Before turning to our witness testimony, I would be remiss if I did 
not underscore how pleased we are to welcome Tibetan filmmaker Dhondup 
Wangchen to today's hearing. It's not often that we're able to welcome 
to the witness stand political prisoners whose cases the Commission has 
highlighted in our prisoner database, in letters to the administration, 
and on social media.
    Set against the backdrop of a different Olympic Games in Asia, it 
is fitting to recall that Mr. Wangchen's ``crime'' was making the short 
documentary film ``Leaving Fear Behind'' in 2008 which was based on 108 
interviews he conducted with Tibetans who expressed views on a range of 
issues, from the Dalai Lama to the 2008 Beijing Olympics.
    Golog Jigme, Mr. Wangchen's assistant in producing the film was 
among the witnesses at an April 2016 Commission hearing titled, 
``China's Pervasive Use of Torture.'' He, too, was subsequently 
detained in 2008 for his work on the documentary and during his 
detention, severely tortured.
    Mr. Wangchen: We welcome you to America, to safety and freedom, and 
we stand with you in working toward the day when the Tibetan people are 
afforded these same protections.
    Please join me in welcoming our witnesses Mr. Dhondup Wangchen, 
Tibetan filmmaker and recently escaped political prisoner, Dr. Tenzin 
Dorjee, Commissioner, U.S. Commission on International Religious 
Freedom (USCIRF) and Associate Professor, California State University, 
Fullerton, and Dr. Michael J. Green, Senior Vice President for Asia and 
Japan Chair at the Center for Strategic and International Studies 
(CSIS).

                               __________

                       Submissions for the Record


    Statement of Hon. James P. McGovern, a U.S. Representative from 
                             Massachusetts

                           february 14, 2018
    I thank the Congressional-Executive Committee on China for 
convening this critically important hearing on the eve of the 
anniversary of the 1959 Tibetan uprising, in which 87,000 Tibetans were 
killed, arrested or deported to labor camps, and which led His Holiness 
the Dalai Lama to flee to India along with tens of thousands of other 
Tibetans. I appreciate the opportunity to provide a statement for the 
record.
    I admire the courage and perseverance of the Tibetan people. I have 
stood in solidarity with them for years in their struggle to exercise 
their basic human rights--to speak and teach their language, protect 
their culture, control their land and water, travel within and outside 
their country, and worship as they choose.
    Dhondup Wangchen embodies that struggle. I join my colleagues in 
welcoming him to Washington and to the halls of Congress.
    But as the Dalai Lama ages, and as China doubles down on its deeply 
authoritarian practices, I worry that time is running out to make sure 
that Tibetans will be able to live their lives as they wish.
    China has a terrible human rights record. Whatever hope once 
existed that China would become more open, more ruled by law and more 
democratic as it became wealthier, has faded over the years--especially 
under the rule of President Xi Jinping.
    As Xi Jinping consolidated his power during last October's 
Communist Party Congress, he laid out a vision of China in which every 
aspect of life--economic, political, cultural and religious--will be 
under the control of the Communist Party, an authoritarian vision that 
does not bode well for minority populations like the Tibetans, who see 
the world through a different lens.
    One of my great frustrations as a Member of Congress has been the 
unwillingness of the United States Government, under both Democratic 
and Republican administrations, to impose any real consequences for 
China's bad human rights behavior.
    I understand there are trade-offs in foreign policy. But I see 
nothing to suggest that going easy on China's human rights record has 
worked. Instead, the overall human rights situation is getting worse: 
human rights lawyers detained, held in secret and incommunicado; the 
enforced disappearance of critics from Hong Kong; a cyber security law 
that strangles online freedom; the highest number of executions in the 
world. The barbaric denial of adequate health care and the death in 
custody of Liu Xiaobo.
    At the same time, the repression of the Tibetan people has 
deepened. Tibetans are confronted with an intrusive official presence 
in monasteries, pervasive surveillance, limits on travel and 
communications and ideological re-education campaigns.
    Last year demolitions were carried out at Larung Gar, the famous 
Tibetan Buddhist center of learning, and thousands of monks and nuns 
were expelled. We now know that draconian new controls have been 
imposed there--party cadres are taking over management, finances, 
security, admissions, and even the choice of textbooks.
    As of last August, 69 monks, nuns or Tibetan reincarnate teachers 
were known to be serving sentences in Chinese prisons. I fear the real 
number is much higher.
    And the Chinese government continues to claim the prerogative to 
decide who will succeed the Dalai Lama--a mind-boggling conceit for a 
government that is officially atheist.
    This is not the first time the Chinese government has interfered in 
the identification and installation of reincarnated leaders of Tibetan 
Buddhism. In 1995, the government arbitrarily detained the 11th Panchen 
Lama, then a six-year-old boy, and installed its own candidate for the 
job.
    I see no evidence that things are getting better for the Tibetan 
people, and so it is critically important that Congress speak out in 
support of Tibetan rights. Hearings like this one, and those held last 
year by the Tom Lantos Human Rights Commission, which I co-chair, and 
the House Foreign Affairs Committee, say to China that we are paying 
attention.
    But it is not enough. The many meetings we have all had with 
courageous Tibetans, our solidarity with their plight, our appreciation 
for His Holiness, are not enough.
    China needs to face real consequences for its actions in Tibet. And 
that means we in Congress need to step up the pressure.
    To start, Congress must pass the Reciprocal Access to Tibet Act, 
the bill I introduced in the House last session, along with a 
bipartisan group of Members, and that Senators Rubio and Baldwin are 
leading in the Senate. This bill imposes consequences for restrictions 
on travel to areas in China where ethnic Tibetans live.
    The rationale is simple. The basis of diplomatic law is mutual 
access and reciprocity. But while the Chinese enjoy broad access to the 
United States, the same is not true for U.S. diplomats, journalists or 
tourists going to Tibet--including Tibetan-Americans trying to visit 
their country of origin.
    This is simply unacceptable. If China wants its citizens and 
officials to travel freely in the U.S., Americans must be able to 
travel freely in China, including Tibet.
    Under the Reciprocal Access Act, no senior leader responsible for 
designing or implementing travel restrictions to Tibetan areas would be 
eligible to enter the United States. Allowing travel to Tibet is only 
one step China needs to take; there are others.
    China should permit His Holiness the Dalai Lama to return to Tibet 
for a visit if he so desires. He has that right, and he must have that 
opportunity before it is too late.
    As Members of Congress we must insist that the administration name 
a Special Coordinator for Tibetan Issues, a statutory position.
    We must support the robust use of the Global Magnitsky Act to hold 
accountable Chinese officials responsible for human rights abuses. The 
December decision to sanction Gao Yan for his involvement in the 
arbitrary detention, torture, and death of human rights activist Cao 
Shunli was a good first step. It should be the first of many.
    We must redouble our efforts to secure the release of Tibetan 
prisoners of conscience. It is time to insist that American businesses 
do their part to protect the human rights of Tibetans and all the 
people of China. To not speak out in the face of abuse is to be 
complicit.
    Changing Chinese behavior will not be easy. But it is time to walk 
the walk. The alternative risks the lives and well-being of millions of 
Tibetans.
    Thank you.
                               __________
                          Witness Biographies

                           february 14, 2018
    Dhondup Wangchen, Tibetan filmmaker and recently escaped political 
prisoner

    Dhondup Wangchen is a Tibetan filmmaker and former political 
prisoner, who arrived to freedom and safety in the United States on 
December 25, 2017 to be reunited with his wife and four children. Mr. 
Wangchen was detained by Chinese authorities in March 2008 on charges 
related to a 25-minute documentary titled ``Leaving Fear Behind.'' The 
film was based on 108 interviews that Wangchen conducted over five 
months, and included candid conversations with Tibetans who expressed 
views on a range of issues, from the Dalai Lama and the 2008 Beijing 
Olympics to the human rights situation in Tibetan areas. In July 2009, 
Dhondup Wangchen was charged with ``inciting separatism'' and 
subsequently sentenced to six years imprisonment where he endured harsh 
treatment including solitary confinement and manual labor. Wangchen was 
released in July 2014 after completing his sentence but remained under 
strict surveillance. Dhondup Wangchen has been honored by Amnesty 
International and the Committee to Protect Journalists awarded him the 
International Press Freedom Award in 2012. Mr. Wangchen's case was a 
priority for the United States government. The U.S. State Department 
raised his case at the U.S.-China Human Rights Dialogue in 2016.

    Tenzin Dorjee, Ph.D., Commissioner, U.S. Commission on 
International Religious Freedom (USCIRF) and Associate Professor, 
California State University, Fullerton

    Tenzin Dorjee is a Commissioner on the U.S. Commission on 
International Religious Freedom, appointed by House Minority Leader 
Nancy Pelosi. Dr. Dorjee also is an Associate Professor at California 
State University, Fullerton (CSUF). Dr. Dorjee was selected as the 2017 
Distinguished Faculty Marshal for the College of Communications, CSUF. 
He has authored and co-authored articles on Tibetan culture, identity, 
nonviolence, and middle-way approaches to conflict resolution, 
including the Sino-Tibetan conflict, intercultural and intergroup 
communication competence, and intergenerational communication context. 
He has presented at many international and national communications 
conventions. He also has translated works of Tibetan Buddhism and 
culture into English. He has had the honor of translating for the Dalai 
Lama in India and North America, as well as for many preeminent Tibetan 
Buddhist professors.

    Michael J. Green, Ph.D., Senior Vice President for Asia and Japan 
Chair, Center for Strategic and International Studies (CSIS)

    Michael J. Green is senior vice president for Asia and Japan Chair 
at the Center for Strategic and International Studies and director of 
Asian Studies at the Edmund A. Walsh School of Foreign Service at 
Georgetown University. He served on the staff of the National Security 
Council (NSC) from 2001 through 2005, first as director for Asian 
Affairs with responsibility for Japan, Korea, Australia, and New 
Zealand, and then as special assistant to the president for national 
security affairs and senior director for Asia, with responsibility for 
East Asia and South Asia. Before joining the NSC staff, he was a senior 
fellow for East Asian Security at the Council on Foreign Relations, 
director of the Edwin O. Reischauer Center and the Foreign Policy 
Institute and assistant professor at the School of Advanced 
International Studies at Johns Hopkins University, research staff 
member at the Institute for Defense Analyses, and senior adviser on 
Asia in the Office of the Secretary of Defense. 
He also worked in Japan on the staff of a member of the National Diet. 
Dr. Green has authored numerous books and articles on East Asian 
security, 
including most recently, ``By More Than Providence: Grand Strategy and 
American Power in the Asia Pacific Since 1783'' (Columbia University 
Press, 2017) 
https://www.bymorethanprovidence.com/.



                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
